<html>
<title> - THE AMERICAN COMMUNITY SURVEY--A REPLACEMENT FOR THE CENSUS LONG FORM?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 THE AMERICAN COMMUNITY SURVEY--A REPLACEMENT FOR THE CENSUS LONG FORM?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2000

                               __________

                           Serial No. 106-246

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-836                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
                 Vaughn Kirk, Professional Staff Member
                Erin Yeatman, Professional Staff Member
                        Andrew Kavaliunas, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2000....................................     1
Statement of:
    Collins, Hon. Mac, a Representative in Congress from the 
      State of Georgia...........................................    15
    Crowe, David, staff vice president of housing policy, 
      National Association of Home Builders; Edward Hudgins, 
      director of regulatory studies, the Cato Institute; Chuck 
      Fluharty, director, Rural Policy Research Institute; 
      Richard Kulka, vice president of statistics, health and 
      social policy, Research Triangle Policy, accompanied by 
      Judith T. Lessler, director, Statistics Research Division; 
      and Barbara Welty, president, National Center for Small 
      Communities, Board of Directors, National Association of 
      Towns and Townships........................................    51
    Emerson, Hon. Jo Ann, a Representative in Congress from the 
      State of Missouri..........................................     9
    Spotila, John, Administrator, Office of Information and 
      Regulatory Affairs, Office of Management and Budget, 
      accompanied by Katherine Wallman, Chief Statistician for 
      the United States; and Kenneth Prewitt, Director, Bureau of 
      the Census.................................................    23
Letters, statements, etc., submitted for the record by:
    Collins, Hon. Mac, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    17
    Crowe, David, staff vice president of housing policy, 
      National Association of Home Builders, prepared statement 
      of.........................................................    55
    Emerson, Hon. Jo Ann, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    12
    Fluharty, Chuck, director, Rural Policy Research Institute, 
      prepared statement of......................................    83
    Hudgins, Edward, director of regulatory studies, the Cato 
      Institute, prepared statement of...........................    71
    Kulka, Richard, vice president of statistics, health and 
      social policy, Research Triangle Policy, prepared statement 
      of.........................................................    91
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     7
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     3
    Prewitt, Kenneth, Director, Bureau of the Census, prepared 
      statement of...............................................    33
    Serrano, Hon. Jose E., a Representative in Congress from the 
      State of New York, prepared statement of...................   103
    Spotila, John, Administrator, Office of Information and 
      Regulatory Affairs, Office of Management and Budget, 
      prepared statement of......................................    25
    Welty, Barbara, president, National Center for Small 
      Communities, Board of Directors, National Association of 
      Towns and Townships, prepared statement of.................    96

 
 THE AMERICAN COMMUNITY SURVEY--A REPLACEMENT FOR THE CENSUS LONG FORM?

                              ----------                              


                        THURSDAY, JULY 20, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2358, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Maloney, and Davis of 
Illinois.
    Staff present: Jane Cobb, staff director; Chip Walker, 
deputy staff director; Vaughn Kirk and Erin Yeatman, 
professional staff members; Michael Miguel, senior data 
analyst; Andrew Kavaliunas, clerk; David McMillen and Mark 
Stephenson, minority professional staff members; and Earley 
Green, minority assistant clerk.
    Mr. Miller. A quorum being present, the subcommittee will 
come to order.
    Today we are here to begin the process of eliminating the 
problematic census long form. The issue of the census long form 
hit home in early March when census forms began to arrive in 
the mail. It was at that time we realized there was a newly 
surfaced discontent with the nature of the long form questions. 
From newspapers to television, and from talk radio to 
congressional offices, everyone was talking about privacy and 
the perceived intrusive nature of the long form questionnaire.
    Even though the long form was the shortest it had ever been 
and only contained one new question since 1990, this didn't 
seem to matter to some people. They were legitimately concerned 
about their privacy. This change in attitudes was not simply 
the Census Bureau's fault. Congress had given its tacit 
approval of the questions earlier in 1998, but even then, no 
one had sensed that the privacy concerns would be as intense as 
they were this spring.
    Even many of the special interest groups that loudly 
complained about the content of the questionnaire this spring, 
were silent on its content during the public comment period 2 
years ago.
    So what changed? What was so different about the 2000 
census as compared to 1990? Simply put, we changed. The 
American people changed. The American people, over the last, 
decade have become more concerned about their privacy, more 
concerned about the intrusive nature of government, and more 
concerned about the intrusive nature of private businesses.
    A story I've told before highlights these concerns: My wife 
assisted one of our elderly neighbors complete her census form. 
This neighbor was adamant that there was certain information 
like her phone number and her income that she was simply not 
going to give to the government. Her reasoning was that she 
couldn't trust the government. She mentioned how certain State 
governments had sold driver's license information to private 
businesses, and she felt strongly that her trust in government 
had been betrayed. She made no real distinction between local, 
State or Federal Government.
    I believe many people feel this way, and who could blame 
them? However, these privacy issues cannot simply be laid at 
the feet of government either. Businesses from the traditional 
to the new dot-coms exchange volumes of information on us every 
day. Recently an Internet toy store that is going out of 
business was caught trying to sell its customer data base, 
personal information about parents and children. This sale of 
personal information was never approved by the consumers. 
Financial institutions and medical facilities share records 
about people every day without their permission or knowledge.
    Census Bureau Director Kenneth Prewitt has said before this 
subcommittee, and I think he's right, that we are at an 
impasse, a catch-22, if you will. We are a society that thrives 
on information. Successful business models build on, ``knowing 
your customer.'' The more a business knows about its customers, 
the more efficiently and profitably it can provide goods or 
services. Yet, at the same time, we, as Americans, love our 
privacy. We fight for that privacy every day in State 
legislatures, the U.S. Congress and the courts.
    So today we examine a piece to that puzzle, the American 
Community Survey. While I think most of us here today support 
eliminating the long form, is the American Community Survey the 
answer? I'm not sure. It would be a disservice to the American 
people if we were to reflexively approve the American Community 
Survey in the wake of the long form controversy, without giving 
it careful consideration to determine if it addresses today's 
privacy concerns. This and other key concerns must be addressed 
before any long form commitment from Congress can be made.
    Is the American Community Survey cost-efficient?
    Two, should the American Community Survey be a mandatory or 
voluntary survey?
    Three, are rural areas getting quality and timely data?
    Four, will it be implemented in an accurate, efficient and 
consistent manner?
    And finally, five, does the American Community Survey 
address the privacy concerns of the American people?
    Not until these questions and their components are answered 
satisfactorily can Congress give its full blessing to the 
American Community Survey.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.001
    
    [GRAPHIC] [TIFF OMITTED] T3836.002
    
    Mr. Miller. I now turn to Mrs. Maloney for her opening 
statement.
    Mrs. Maloney. Thank you, Mr. Chairman. Today's hearing on 
the American Community Survey is both important and timely; 
important because it represents a new, hopefully improved, way 
to collect information about the American people. Such 
information is vital to making informed policy decisions. This 
survey is timely because we all remember the controversy over 
the long form which flared a few months ago.
    First, I want to take a moment to compliment the Census 
Bureau and Director Prewitt for how well the census is doing so 
far. I know that there have been press reports in Florida and 
Illinois about the Census Bureau having to take corrective 
action where procedures apparently were not adhered to. I am 
sure that problems like these were not unexpected given the 
fact that we have had to hire over a half a million people for 
temporary work on the census. The problems need to be 
addressed, as I'm sure the Bureau is doing, but they also need 
to be kept in perspective. If only 1 percent of all of the 
people hired hadn't followed directions correctly, we would be 
hearing many more complaints than just the handful we have.
    The decennial census does two things. It counts the 
population, and it obtains demographic, housing, social, and 
economic information by asking one in six American households 
to fill out a long form. This information is necessary for the 
proper administration of Federal programs and the distribution 
of approximately $180 billion Federal dollars per year. It is 
also vital not only for the Federal Government, but for local 
governments, health researchers, transportation planning, 
businesses across the country and a dozen other fields.
    The census is done once every 10 years, and the information 
collected by the long form goes out of date after 2 to 3 years. 
State and local governments, development organizations and 
other planners are therefore often reluctant to rely on census 
data at the end of a decade for decisions that are expensive 
and affect the quality of life of thousands of people.
    The American Community Survey is intended to provide data 
communities need every year instead of only once every 10. It 
will be an ongoing survey that the Census Bureau plans will 
replace the long form in the 2010 census.
    When fully implemented, the ACS will provide estimates of 
demographic, housing, social and economic characteristics every 
year for all States, as well as for all cities, counties, 
metropolitan areas, and population groups of 65,000 people or 
more. For smaller areas, it will take 2 to 5 years to 
accumulate sufficient data, but after that, information will 
also be available every year.
    The questions on the American Community Survey 
questionnaire are the same as those on the long form; questions 
which have been around for decades and which every Member of 
Congress received 2 years before the decennial census.
    The questions asked by the census represent a balance 
between the needs of our Nation's communities and the need to 
keep the time and effort required to complete the form to a 
minimum. These questions are required by a multitude of Federal 
statutes, and I look forward to hearing from the authorizing 
committees, perhaps at a future hearing, about why their 
committees have required this data to be collected by the 
Census Bureau. Federal and State funds for schools, employment 
services, housing assistance, road construction, day care 
facilities, hospitals, emergency services, programs for 
seniors, and much more will be distributed based on these data.
    I think those who criticized the long form either don't 
know or maybe don't care how essential this information is to 
solving the problems of the people of our country, and they may 
have similar criticisms of the American Community Survey.
    Let's look some at just one of these questions, take the 
question on plumbing that the talk radio shows seemed to focus 
on. It may shock some, but there are places in this country 
where Americans don't have plumbing, in the Colonias in Texas, 
on Indian reservations, and in isolated rural communities 
across America. We can't help these places if we don't know 
where they are.
    Or let's look at question 17 concerning a person's 
physical, mental or emotional condition in the last 6 months. 
Don't we need to know how big a problem this is, how many 
disabled Americans there are in this country? Small communities 
need to know where the disabled live in order to provide 
transportation and other services called for under the 
Americans With Disabilities Act.
    In the information age we need reliable information in 
order to make good decisions for this Nation. Without good data 
you cannot administer the laws of this country fairly.
    I for one will continue to do all I can to make sure that 
the Census Bureau has the capabilities to provide the Congress, 
and this Nation, with the ability to provide all of us with the 
high-quality data needed by the public and its elected 
representatives to make informed public policy decisions.
    Thank you, Mr. Chairman. I thank my colleagues that have 
come to report to us.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T3836.003

[GRAPHIC] [TIFF OMITTED] T3836.004

    Mr. Miller. Mr. Davis, do you have an opening statement?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and I will make a brief comment. Let me, first of all, commend 
you and Ranking Member Maloney for the manner in which you have 
both gone about trying to make sure that this issue remains in 
front of the American public and to make sure that we do, in 
fact, not only get the best and most accurate count that we can 
for the census that is under way, but also that we have 
understanding as we move into the future.
    I also want to thank Representatives Collins and Emerson 
for their willingness to come and share with us this morning 
and to voice concerns about the issue.
    I also commend Dr. Prewitt for sharing his findings with us 
in relationship to what we have been able to do up to this 
point with the 2000 census.
    I look forward to hearing the proposed missions to be 
accomplished by the American Community Survey. Will it be as 
efficient as the long form questionnaire in maintaining the 
most accurate count possible and in securing the information 
that is needed? Especially as we talk about all of the 
different aspects of American life, I find it somewhat 
incomprehensible that at the same time we would talk about 
denying the information or not generating the information that 
is needed in order to make rational, logical and informed 
decisions. Of course that is the beauty of democracy. We all 
have a right to do whatever it is that we want to do, even if 
it is wrong.
    Does it ask the questions necessary to determine where the 
most financial assistance should be targeted? In addition, I 
look forward to our expert witnesses as they express concerns 
relating to the use of the American Community Survey.
    I am excited about the work that the Census Bureau has 
done. I have really enjoyed serving on this committee and have 
enjoyed the interaction with the leadership as well as the 
Bureau. I look forward to a good count for this year, but more 
importantly, I look forward as we move ahead to really having 
the kind of information and the kind of data that the American 
people need.
    I also want to thank my intern Detris Brown, who prepared 
this statement. This was her first one, and she has 
demonstrated a serious grasp of the issue. Detris, thank you 
very much.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Miller. Thank you, Mr. Davis.
    We are pleased to have a couple of our colleagues today. 
The long form controversy created concern by many of our 
colleagues. I think Mrs. Emerson is concerned about some of the 
rural concerns. Mr. Collins, is it all right if Mrs. Emerson 
goes first? We are both at a markup across the hall. Mrs. 
Emerson, would you like to go first?

STATEMENT OF HON. JO ANN EMERSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mrs. Emerson. Thank you, Mr. Chairman, Mrs. Maloney and Mr. 
Davis. I speak as the cochairperson of the rural caucus.
    As you know, this is really a period of rapid change for 
rural communities, for rural governments. Economic and 
demographic shifts and changing relationships between Federal, 
State and local governments are really having major impacts 
upon rural communities. As Congress continues to devolve 
decisionmaking and resources to the local level, it has become 
critical that the local leaders in the public and private 
sector have accurate information upon which to make critical 
policy choices which will impact the future well-being of their 
communities.
    Greater responsibility than ever is being transferred to 
our local units of government, not only by this Congress and 
the administration, but also by our State governments. As this 
important task of moving government closer to the people 
unfolds, there remains an inherent potential that rural places 
and people will be disadvantaged. Rural decisionmakers have 
significantly much less access to the effective decision 
support tools necessary to make informed public choices.
    There are many reasons for this rural disadvantage, but 
because accurate and timely data is seldom available for rural 
communities and smaller rural jurisdictions, and because these 
entities have limited budgets, and in some cases severely 
limited budgets, and are often led by part-time decisionmakers, 
timely, empirically based assessments of policy alternatives 
are seldom available. I would say based on the communities in 
my district, which is composed of 26 counties and very remote 
areas in some instances, that really probably is an 
understatement.
    Unfortunately, our rural citizens are increasingly 
disadvantaged in this regard. Urban and suburban jurisdictions 
with full-time research staffs are at a significant advantage 
in competing for the Federal and State resources available to 
support their communities. Rural communities must wait for the 
decennial census for the locally based data upon which to base 
their decision. Often this data is already out of date when the 
census is published, and then this information remains the only 
available data source for most rural communities for the next 
10 years. Obviously in this era of decentralized community-
based decisionmaking, these communities are in dire need of 
more accurate and timely information upon which to base future 
decisionmaking.
    Let me give a recent snapshot of rural America which really 
does reinforce this reality. During the 1990's, a significant 
rural population rebound occurred, totally reversing the rural 
out-migrations of the 1980's. Three-fourths of our country's 
2,350 rural counties grew in population between 1990 and 1997; 
seven-eighths of these communities derived some or all of their 
population increase from in-migration of metropolitan 
residents. Of the rural population increase of 800,000 between 
1995 and 1997, 400,000 came from metropolitan areas, and 
100,000 came from immigrations. Due to these shifts, many 
growth counties are experiencing unique new diversity in 
ethnic, racial and cultural composition with their attendant 
challenges and conflicts.
    From 1990 to 1998, metropolitan America experienced 
domestic out-migration of over 10 percent. By contrast, over 50 
percent of nonmetropolitan America was domestic in migration. 
Only nine States in the Nation had a net nonmetropolitan out-
migration. Just taking a brief snapshot of my own State 
reinforces this reality. In this decade over the last 10 years, 
145,000 more people moved into Missouri than moved away. Nearly 
all of these folks moved to places other than Kansas City and 
St. Louis. In fact, over 80 percent of the population growth in 
our 92 nonmetro counties resulted from in-migrations.
    Using 1990 census data entirely misses these new rural 
realities. Given these changes, it is evident that any policy, 
program or resource allocation decision based upon a 1990 rural 
America would have completely missed the mark. Because the face 
of rural America is changing so quickly, and these new rural 
realities are often so misunderstood at all levels of 
governance, the importance of accurate rural data is critical.
    A number of issues continue to be raised regarding the 
fairness of the American Community Survey for rural 
constituencies. The Congressional Rural Caucus is particularly 
concerned with these issues, recognizing there are unique 
challenges which must be addressed to effectively implement the 
American Community Survey in rural areas. However, I am also 
aware that an ongoing discussion with rural social scientists 
and rural community organizations has resulted in specific 
attention to these issues.
    I would urge the committee to remain vigilant to assure 
that these issues are adequately addressed, and I urge the 
census and ACS staff to continue to be sensitive to these 
challenges. I would also ask that particular attention be paid 
to the testimony of Chuck Fluharty, who is the director of 
Rural Policy Research Institute for the subcommittee. He will 
be testifying, I think, on panel three.
    Simply put, having accurate and timely data is critical to 
assuring our rural communities do not continue to be 
significantly disadvantaged in our Federal statistical 
processes, however inadvertent that harm may be. The 
Congressional Rural Caucus would be pleased to work with the 
subcommittee and the full committee and Congress to ensure that 
this is achieved, and I thank you very much.
    Mr. Miller. Thank you, Mrs. Emerson.
    [The prepared statement of Hon. Jo Ann Emerson follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.005
    
    [GRAPHIC] [TIFF OMITTED] T3836.006
    
    Mr. Miller. We will go ahead and ask questions.
    Mrs. Emerson. Thank you.
    Mr. Miller. I am glad that you are here today because I 
think so much of our focus has been on urban concerns and 
issues with the decennial.
    One question that I have, the Agriculture Department does a 
certain amount of surveying of its own. I don't know very much 
about it, whether or not there is a way to make use or 
contracting with the Agriculture Department because they do a 
farm survey.
    Mrs. Emerson. They do a farm survey, but keep in mind even 
though I would have 26 counties, the majority of which are 
agricultural in nature, by just looking at farms, because it 
depends on farm size, etc., you really don't capture the number 
of people and a lot of the other challenges that we face in 
rural America.
    The fact of the matter is when you get your decennial 
census information 10, 12, 11 years late as it somehow applies 
to rural America, we do get missed in any kind of allocation of 
resources. For example, Medicare reimbursements to rural 
hospitals are based on such inaccurate data that we are losing 
hospitals right and left. When you look at education funding, 
we get the short shrift every time.
    There has to be some mechanism where we can measure what is 
going on in rural America in the in-between times. I know that 
there is concern about privacy issues, but using a 3-year 
rolling average, which, in fact, the ACS does, would, in fact, 
help us simply because of the unique nature and the challenges 
we face in rural America. If you really look at rural America, 
it is very similar to the challenges urban America faces, and a 
quarter of the population lives in rural America. Oftentimes we 
simply get missed in the overall assessment and don't have the 
resources to lobby, if you will, for those things that we need 
as effectively as others do in more affluent areas.
    Mr. Miller. Thank you.
    Mrs. Maloney. Thank you very much, Jo Ann, for your 
testimony.
    In reviewing the testimony of Representative Collins, one 
of the proposals is making only the short form mandatory, and I 
want to know what your response is to that suggestion and 
whether or not you see any negative effect on rural 
communities.
    Mrs. Emerson. As many calls and letters as we got, people 
complaining about the long form, and it was onerous in some 
respects, because we have difficulties in obtaining some of 
that information in rural America, I suppose I would say some 
combination would be in order. And I realize that there is a 
financial portion of that, but in order that we be able to have 
the resources we need to not only keep rural America viable, 
but to let it flourish as it once did, I think the more 
information that we have, as Mr. Davis said, the better off we 
are.
    Mr. Miller. Mr. Davis, do you have any questions?
    Mr. Davis of Illinois. Well, actually she answered my 
question just at that moment.
    What I was going to ask, Representative Emerson, as an 
expert on rural America, on needs, quality of life, indicators, 
as one who really understands and who is there, without the 
information how difficult would it be to really understand what 
was going on in these areas of the country?
    Mrs. Emerson. I think given the spread-out nature of rural 
America, and my district is small compared to those in the 
Western States, if you have to drive 50 miles to a grocery 
store, that is not too far. It is difficult to accumulate the 
information. I am not an expert in statistics, and perhaps Mr. 
Fluharty can help answer the more technical part of that, but I 
think it is extremely difficult to obtain the data from rural 
America, and I think if we do not attempt to find some means to 
interview, assemble information in the in-between years, that 
we in rural America will not be able to compete on a level 
playing field with the cities and suburbs.
    Mr. Davis of Illinois. Thank you.
    Mrs. Emerson. Thank you, and if you will excuse me, I will 
run to my markup.
    Mr. Miller. Mr. Collins.

  STATEMENT OF HON. MAC COLLINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, I appreciate the 
fact that you allow me to come and speak to you this morning 
about a bill, H.R. 4188, entitled the Common Sense Census 
Enforcement Act of 2000. The bill was actually inspired by 
constituents, many of whom contacted me to complain that this 
year's census was too intrusive. Their complaints centered on 
the long form, which they said took too long to complete and 
asked questions which were too personal. They wanted to know 
why the Census Bureau needed to know about their plumbing or 
about the size of their paychecks. Many of them were also 
worried about the fines for those who either lie or refuse to 
answer the questions on the form.
    Mr. Chairman, we know these are legitimate questions. Mrs. 
Maloney, they are legitimate questions, and I understand the 
reason for asking those questions. The Census Bureau looks at 
the census as a once-in-a-decade chance to gather a great deal 
of information that may be very useful. Nonetheless, we have to 
ask ourselves if this additional information is absolutely 
necessary to fulfill the constitutional purpose of the census, 
which is to enumerate the population for the purpose of 
redistricting.
    Further, the complexity of the census long form and the 
threat of the financial penalties is actually 
counterproductive. The long form questions tend to intimidate 
Americans and lead to a lower participation in the census. This 
leads to an undercounting of the poor, members of minority 
communities, children, and those living in rural areas and 
inner cities. In other words, it intimidates all segments of 
the American population.
    And it is important that we have as accurate a count as we 
can have. I know, and we all know, the Census Bureau has a 
very, very difficult job, but as every member of this committee 
is acutely aware, the census is constitutionally mandated for 
the purpose of apportioning Federal legislative districts, and 
the population information gathered is also used in drawing 
State legislative district lines. The Constitution requires the 
Federal Government to conduct the census, and Federal law also 
requires that the residents answer the census completely and 
truthfully. Failure to answer any questions can result in fines 
up to $100. Furthermore, if one intentionally provides 
inaccurate information in response to the census, the law 
provides for fines up to $500.
    These penalties are understandable with regard to the 
questions directly related to apportionment, in light of its 
central importance to our constitutional system. I do, however, 
question the appropriateness of imposing such penalties for 
refusal to answer questions unrelated to apportionment. 
Congress should eliminate the penalties for failure to answer 
census questions unrelated to apportionment. To accomplish this 
I have introduced H.R. 4188, which would eliminate the fine for 
failure to answer census 2000 questions unrelated to 
apportionment. By taking this action, Congress can limit the 
intrusive nature of the census while still providing the 
government with the basic information necessary to administer 
our Republic.
    H.R. 4188 does not prevent the Census Bureau from 
collecting information. It does not stop the Census Bureau from 
collecting information through other surveys. It only prevents 
the levying of penalties on those Americans who choose not to 
participate.
    I must say we had a lot of assistance from the regional 
census office in Atlanta when we had these questions asked us, 
am I going to be penalized, and am I going to be fined if I 
refuse to answer or inaccurately answer. According to the law, 
the answer is yes. But I will say that the regional office and 
the D.C. office both were very cooperative in saying, ``we 
don't intend to levy any fine on anyone,'' but that is not what 
the law says. Someone else could come back later and say, 
``well, you didn't answer, and the law is this,'' and that is 
the reason that we are so encouraged and want to see some 
changes in the penalty portion of the nonapportionment portions 
of the census.
    In closing, I share the belief of many Georgians who find 
it inappropriate for the Federal Government to coerce citizens 
to provide personal information by packaging non-apportionment-
related questions with the constitutionally required and 
legally enforceable apportionment questions. In the future the 
information should be collected separately.
    There has been one proposal for dividing the Census Bureau 
into two divisions--one which conducts a postcard census for 
reapportionment and another which handles surveys and polls. 
This proposal has gained support inside and outside the 
Congress. While this proposal should be examined, it should be 
made clear that no penalty will be applied to those who refuse 
to answer questions unrelated to apportionment.
    I urge my colleagues to join me in supporting H.R. 4188. 
Thank you, Mr. Chairman.
    Mr. Miller. Thank you, Mr. Collins.
    [The prepared statement of Hon. Mac Collins follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.007
    
    [GRAPHIC] [TIFF OMITTED] T3836.008
    
    Mr. Miller. Your area is not as rural as Ms. Emerson, but 
it is relatively suburban rural?
    Mr. Collins. The district at the northern end is just 
outside of Atlanta, which is a bedroom community, and runs 
through a rural area to Columbus, which is a rather large city 
in relation to other cities in Georgia. So we have a mix. We 
are very proud of that, and we want everyone counted. I think 
it is important that everyone should be counted so when it 
comes to redistricting, you have a number that is as accurate 
as possible so you can have fair reapportionment so people are 
represented by people within their communities.
    Mr. Miller. The long form is a sample going to one out of 
six on average, but in rural America it can be one out of two. 
In Mr. Davis' or Mrs. Maloney's district, it may be one out of 
seven or eight. We have talked about this before. They have 
made major improvements on the long form since 1990. They have 
focus-grouped the questions and reduced the questions; and as 
you know, the plan or the discussion for 2010 is to go to--we 
will talk more about a postcard, but a postcard type of census 
concept.
    One of the questions that you raise on the fine, the fine 
hasn't been used since 1960. And if we are going to have a 
fine, and I would think that Henry Hyde or John Conyers would 
agree, if you have a fine and you don't enforce it, what good 
is it? It is a legitimate question. It is like jaywalking; if 
you don't enforce it, why have the fine? Certainly on the 
proposed plan, which is just six questions or so for the short 
form, which is a Constitution requirement, but how do we ensure 
the data is accurate, and we have to weigh that. As we go 
through this process preparing for the 2010 census, and that is 
what this hearing is about, you bring up some valid points. 
Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you for coming and showing the concern 
that you have and the concern expressed by your constituents.
    One thing that is so very special about the census is that 
it is a great civic ceremony that is mandatory. Literally every 
American is called upon to participate in the census, and that 
is one of the responsibilities that we have to be residents in 
this country. And if you went forward with your proposal, you 
would basically make the census a voluntary activity, 
particularly for the long form.
    I really can't think of any other activity we have in the 
country that absolutely everyone--it is mandatory, it is 
required that we do this. Education, you can educate in your 
home. There is flexibility. But the census is an important--it 
is important because of the information that we get. It is 
important for planning for the future, for the country in 
general and our communities.
    One of the things that came out of the research from the 
Census Bureau is that by designating a survey as mandatory on 
the envelope, that increases the mail-back response rate 
dramatically. When people see mandatory, they fill that form 
out. It not only benefits them individually, but it benefits 
their community. To the extent that all of the residents in 
your district are counted, then it is more fair in the 
distribution formulas for the $180 billion.
    One of the things that we would have to do if it was not 
mandatory and the mail-back response rate fell, we would have 
to spend more money going out with the other efforts of 
telephone calls, knocking on doors, so in effect it would raise 
up the cost of the census. You are Ways and Means, but we have 
an appropriator sitting next to us who has to vote on those 
appropriations for all of our expenditures, including the 
census. I guess all of us are concerned about keeping costs 
down for activities, so there is a cost factor to it. I wonder 
how you measure that.
    By just stamping ``mandatory,'' the mail-back response rate 
goes up, and that saves money because then you don't have to 
pay for the field resources to go out.
    One of the things that we are proud of in the census, for 
the first time in 30 years we reversed the decline of the mail-
back response rate. It literally went up, which helps with the 
accuracy and literally saves hundreds of millions of dollars. 
This change could literally cost--we will hear from the experts 
later, but it could cost hundreds of millions of dollars, I 
would think, in implementing the accurate count of the census.
    Mr. Collins. Well, I think you are asking a question that 
there are really no known answers to.
    As far as being on the Ways and Means, without Ways and 
Means and the activities of our committee, there would be no 
appropriations.
    Mrs. Maloney. That is true. We know the hierarchy around 
here. It is a lot higher than the census committee.
    Mr. Collins. At home, my wife and I have a residence, and 
then we have this little lake cottage, and then we have the 
apartment here in Washington, and we also very frequently 
occupy two seats on Delta Airlines. I received a census form, 
more than one, at each one of those locations with the 
exception of the seats on Delta Airlines, and I kept looking 
for those.
    But even though we, my wife and I, filled out--and we 
fortunately got--the short form, we would have filled out the 
long form. I know that there are a lot of Americans who had no 
problem doing it. Even though we filled out the short form and 
submitted it, there was an inaccuracy on the address that came 
to us. My wife changed that in the proper place, but still it 
didn't register, and we received phone calls at each location. 
We had noticed on the doors of each location that people had 
been from the census to see us to get the final form filled 
out. And then, too, about 2 months prior to the last day of the 
deadline, I received a call from staff saying that the 
Washington office had called my office, and I had failed to 
answer the census. They wanted to make sure that as a Member of 
Congress I did fill this thing out, you know. I did, too, 
because I didn't want to be subject to a fine. I have to look 
after my finances, too, you know. But we had filled it out, but 
it had been in some way through the system not registered.
    But how many people are there who just simply say, well, I 
have this thing here, this long form. I don't want to fool with 
this thing. If I don't fill it out, and I fill out the 
important portion of it, but if I send it back without any 
other information, then there is a question that you failed to 
answer on the form. What actually in law is a failure to answer 
the question. There is a fine for inaccurate or failure.
    The information is important. As you suggested with the 
plumbing in many areas of the country, there are still areas 
that have problems when it comes to drinking water or even 
disposing of sewage. But I wonder if we are getting the 
response from the census that we really want for apportionment, 
and if we are actually getting the response to the questions 
that we do need in order to be able to assist people.
    I am not in any way trying to deny any of those questions 
from being answered. If we are going to tell people through the 
Census Bureau or through the regional office or the D.C. 
office, hey, look, we are not going to fine you if you didn't 
do this, but please fill it out and send it in, why not make 
the law conform with what you are telling people? We are 
leaving in place the fines that deal with apportionment so we 
have fair and equal representation across this country.
    Mrs. Maloney. Thank you.
    Mr. Miller. Mr. Davis, any questions?
    Mr. Davis of Illinois. Yes. Thank you very much, Mr. 
Chairman.
    Representative Collins, I listened very intently to your 
testimony, and I have a great deal of appreciation for what you 
said in terms of the concepts of freedom, the individuality of 
citizenship, the rights of people not to be violated unduly and 
unnecessarily, and as I thought about that, I also thought 
about the concepts of citizenship responsibility. It seems to 
me that part of the responsibility of citizenship in a free and 
democratic society is for each member of that society to 
contribute as significantly as he or she can to the 
decisionmaking, the total well-being of not only themselves 
individually, but the group as a whole. And so I thought that 
there is a delicate balance here in terms of how do you satisfy 
both roles, your social role obligation as well as your 
responsibility.
    My question is are you aware of any instances where any 
person has ever been convicted or penalized in any way for 
having refused to give the information that was being asked 
for?
    Mr. Collins. You have just made the case of why we need to 
take the fines off this particular provision of law. No. The 
Census Bureau says we are not going to do this. But, you know, 
they had a little--I am not an attorney, what's the word--
caveat to it. It says that, but that is what they are telling 
us. Someone else may have a different idea because it is the 
law. And is it really freedom to answer the questions if you 
can possibly be monetarily fined for not answering?
    Mr. Davis of Illinois. I think you make somewhat of a 
point, but I have spent a lot of time lately with my father, 
who is 88 years old. I have a lot of octogenarians in my family 
right now. My father is 88, and my mother has a brother who is 
96, and my father has a brother who is 94, and he has another 
brother who is 86. I grew up on a farm. We had a very gentle 
horse, and the horse just wouldn't go anyplace. He would just 
hang around the house and the yard. My father kept him in a 
little pasture. I said, since the horse isn't going anywhere, 
why do you put him in the pasture? He said, I know that he is 
not going anyplace. I just don't want him to be tempted to 
wander away if there are no restrictions, if there are no 
boundaries, and I think this requirement is kind of like that. 
I don't think that it is designed in any way to be punitive or 
even to be harmful, but it is just to guard against individuals 
wandering off and not contributing their fair share of 
information.
    There is not much more than information that is being 
generated, but I really appreciate the concept of the 
legislation that you are projecting. I just think citizens 
aren't giving enough right now in this country, and I think to 
the greatness of this Nation all of us owe a great deal, and 
certainly one of the things that a citizen can, in fact, do if 
nothing else is share that kind of information with the rest of 
us.
    Mr. Collins. I appreciate the fact that you spent a lot of 
your time with your father. Both of my parents are deceased, 
and my dad lived to be 86. When he was about 84, I carried him 
to the doctor 1 day. As we left the doctor's office, I kind of 
stepped back to speak to the doctor.
    When I came out and we got in the car, my dad asked me, he 
said, what did that doctor say? I said, that doctor said I was 
going to live to be 100, and that you were going to be one of 
my pallbearers. He said, any guarantee on that?
    My dad, like yours, was one of the smartest people I have 
ever known even though he only had a third-grade education, and 
he also had a lot of old sayings, and one related to that old 
horse that you wanted to keep in the pasture and not attempting 
to leave without restraints, and that is that you could lead 
that horse to water, but you couldn't make him drink.
    Let's don't intimidate people by trying to get them to 
voluntarily give us information and going and asking them for 
information. The Census Bureau visits numbers and numbers of 
people all across this country, and they can probably get a 
better, accurate--more accurate accounting of information upon 
those visits than the possibility of never receiving any of the 
information back because of the intimidation that is there with 
these possibilities of fines, in addition to the fact that I 
think one of the reasons we have had such a good response to 
the census is that in Georgia, the Governor of Georgia was on 
television with 30-second spots time and time again, and a lot 
of other people, encouraging people to answer the census form.
    It is important. We need this information so that we can 
accurately count people so that we can as fairly as possible 
apportion, and so that we have information that helps cities 
and counties with funding that comes from the Federal 
Government.
    I think that is probably going on all across the country, 
and that had a lot to do with having an increase in count. We 
told people that we need the information to do a better job for 
the representation of the people.
    Thank you.
    Mr. Miller. Mr. Collins, thank you for being with us today.
    Mr. Collins. Thank you, and I hope that you will consider 
H.R. 4188.
    Mr. Miller. Dr. Prewitt, Mr. Spotila, and Katherine 
Wallman, would you come forward, and I'll swear you in.
    [Witnesses sworn.]
    Mr. Miller. Let the record show that all three answered in 
the affirmative.
    This is kind of the beginning of a process that will 
continue for the next year or so as we go through this process 
preparing for the 2010 census and also preparing for the needs 
of our society. We look forward to your testimony and an 
opportunity to ask questions.
    Mr. Spotila, would you go first.

STATEMENT OF JOHN SPOTILA, ADMINISTRATOR, OFFICE OF INFORMATION 
   AND REGULATORY AFFAIRS, OFFICE OF MANAGEMENT AND BUDGET, 
 ACCOMPANIED BY KATHERINE WALLMAN, CHIEF STATISTICIAN FOR THE 
  UNITED STATES; AND KENNETH PREWITT, DIRECTOR, BUREAU OF THE 
                             CENSUS

    Mr. Spotila. Good morning, Mr. Chairman and members of the 
committee. Thank you for inviting me here to discuss how the 
American Community Survey can help the American people by 
improving the quality and timeliness of the data that our 
Federal statistical system provides. I am accompanied by 
Katherine Wallman, who serves as chief statistician for the 
U.S. Government.
    The ACS can provide us with key statistical information on 
a much more current basis. The Census Bureau has piloted the 
ACS since 1996. It hopes to implement the ACS in every county 
in the United States, starting in 2003. By 2010, the ACS may 
replace the census long form and greatly simplify the census 
process so that the decennial census can focus solely on 
counting our population. We see this as a very promising and 
positive initiative. We know that better information can help 
agencies make better decisions about how well the government is 
working, whether new services are needed and whether existing 
programs are still necessary. Better information can also 
improve decisions made by businesses, local organizations and 
individual citizens.
    The American people need timely, accurate information on a 
wide range of topics affecting their daily lives and business 
activities. Each year thousands of Americans cooperate with 
Federal requests for data because they understand the value and 
importance of their participation in these surveys.
    While information plays a critical role in good government, 
we recognize that the collection of that information imposes a 
cost on the public. The Paperwork Reduction Act of 1995 [PRA], 
emphasizes that agencies must strike a balance. They should 
collect the right information to meet their responsibilities to 
the public, but should not require information that is 
unnecessary.
    In carrying out our responsibilities under the PRA, OMB 
reviews and approves agency requests for information. We seek 
to ensure that the information is necessary, that duplication 
of effort is minimized, and that the collection methods used 
are as simple and fast for respondents as possible.
    Most of the information needs of the Federal Government 
flow from statutes passed by Congress. Decennial census data 
that historically have been collected on the long form are 
among key sources of this critical information. Many 
information requirements help implement legislatively based 
programs, including data used in formulas to allocate nearly 
$200 billion annually in Federal funds. A large percentage of 
funding formulas distribute moneys to States and localities. If 
fully implemented, the ACS would provide, beginning in July 
2004, far more current data for use in these formulas.
    Because conditions in some communities can change rapidly, 
having current data is critical to identifying the most 
deserving communities. Although we believe that the ACS can 
generate better, more current data in a cost-effective manner, 
we recognize that we must still implement it wisely and well if 
it is to fulfill its promise. The Census Bureau has the lead on 
this endeavor. Its leaders and staff will work closely with 
Congress, OMB, other Federal agencies and data users to ensure 
that the data collected by the ACS are needed and that the 
survey design methods are both efficient and effective.
    As Dr. Prewitt is noting today, OMB recently launched an 
interagency committee to broaden the dialog on this subject. 
Over the next 3 years, this committee will examine a variety of 
issues relating to the ACS, including a comprehensive review of 
the questionnaire content. The ACS test instrument currently in 
use will be the starting point for this review.
    As with the census 2000 long form, every question on the 
ACS test instrument is required by Federal law to manage or 
evaluate government programs. The committee will examine these 
statutory requirements, determine whether the ACS is the best 
vehicle for meeting them in the years to come, and consider new 
data needs that may be best met by the ACS. It will also work 
with the Census Bureau to develop approaches for considering 
longer-term ACS content issues. These approaches will be 
responsive to congressional concerns and will address the needs 
of Federal agencies that rely on the statistical system.
    OMB ultimately will review and approve the proposed 2003 
ACS instrument through the standard PRA clearance process. In 
doing so, we will carefully consider the recommendations of the 
interagency committee and ensure that the ACS collects the 
right information with minimum burden on survey respondents.
    We welcome the committee's participation and interest in 
all of these matters. We look forward to working with you 
closely and to sharing the results of our collective efforts. 
Thank you.
    Mr. Miller. Thank you.
    [The prepared statement of Mr. Spotila follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.009
    
    [GRAPHIC] [TIFF OMITTED] T3836.010
    
    [GRAPHIC] [TIFF OMITTED] T3836.011
    
    [GRAPHIC] [TIFF OMITTED] T3836.012
    
    Mr. Miller. Director Prewitt.
    Mr. Prewitt. Mr. Chairman, Mrs. Maloney and Mr. Davis. In 
my few minutes I will offer three observations and then 
identify four issue areas.
    My three observations emphasize the importance of the 
American Community Survey in its own terms, note the 
substantial and significant positive consequences of the ACS 
for decennial census, and, third, report that the ACS is 
feasible; that it is meeting its operational tests.
    First, its importance. The American Community Survey is the 
single most important innovation in Federal household 
statistics since the middle of the last century when sampling 
methods were first introduced. This innovation is timely. The 
country will be challenged to sustain its economic well-being 
and enhance its capacity to democratically govern itself under 
the new conditions brought about by, among other things, 
dynamic demographic changes resulting from immigration and 
geographic mobility, the emergence of the knowledge economy, 
and the changing balance of responsibilities between the 
Federal and local government and between the public and private 
sector.
    To navigate in these new social, economic and political 
circumstances with the decennial census long form data is like 
driving in a country we have never visited where the 
directional signs are in a language we do not read and with an 
outdated map, guessing as best we can where we are and where we 
are going. The ACS is an up-to-date map allowing us to navigate 
in a language we understand; that is, facts.
    Mr. Chairman, if we do not launch the ACS this decade, we 
will in the next or the one thereafter. The country will get 
increasingly impatient with a data collection strategy 
initiated in the middle of the 20th century to deal with the 
conditions of the 21st century.
    My second observation: The ACS will revolutionize the way 
we take the decennial census and for the better. With good 
reason, the Congress has been concerned that the long form is a 
drag on the decennial census, that it introduces a complication 
in carrying out the basic constitutional purpose of the census. 
The best solution is to radically simplify the census by 
eliminating the long form.
    Obviously we cannot eliminate the long form without an 
alternative method of collecting detailed population and 
housing characteristics. Congress must have the data it has 
mandated to run the programs it has written into law. Some 400 
pieces of legislation now directly or indirectly require long 
form data. Indeed we are aware of at least 35 new bills 
requiring long form data that have been introduced in the 106th 
Congress alone.
    With the long form task shifted to the ACS, a much simpler 
decennial census comes into view. The Census Bureau has started 
planning how to reengineer many aspects of the decennial census 
to achieve substantial cost savings in every aspect of the 
decennial--address listing, form design, printing, labeling, 
questionnaire delivery, enumerator training, nonresponse 
followup, data capture, data editing, and data tabulation. The 
ACS, for example, can lead to a better master address file 
because we can continuously update the address list in an 
ongoing partnership with local officials. It will improve 2010 
operations by allowing us to use the highly trained and 
seasoned ACS field staff as a cadre of key supervisory staff 
for the 2010 census. A simplified census 2010 can make 
extensive use of the Internet, further reducing costs and 
perhaps taking more advantage of administrative records to 
improve coverage. The ACS can further improve coverage in the 
decennial head count by providing current rather than decade-
old data to target areas where special field procedures are 
called for.
    In short, the ACS offers multiple opportunities for 
substantial cost savings and improved coverage in 2010. The 
Census Bureau will need to conduct operational research if it 
is to do this reengineering in a timely fashion, and the clock 
on census 2010 is already ticking.
    As will be made clear by other witnesses today, the ACS can 
also produce dramatic improvement in the entire infrastructure 
of the Federal statistical system. It is now costly and time-
consuming to create samples for new surveys or to adjust 
samples of existing surveys to provide data to meet the needs 
of policymakers in unforeseen areas.
    My third observation, the ACS is feasible. With strong 
support from the Congress, the Census Bureau has been field-
testing the ACS in selected sites around the country, and we 
are conducting an additional and critical test of the ACS in 
the decennial environment. All signals are showing green.
    The clearest, strongest indicator that the ACS is feasible 
is its successful household response rate, which at better than 
97 percent is higher than that of any other demographic survey 
conducted by the Census Bureau. Also, we have maintained a 
demanding schedule. Next week, for example, we will release 
those 1999 site data scheduled for this month, which is exactly 
on the schedule we have set for ourselves and have pledged for 
the actual ACS when it is fielded.
    I turn now to four issues that will have to be addressed as 
the ACS moves forward. This is not an exhaustive listing, but 
underscores some key areas for further attention.
    I start with what is perhaps the most important: 
constructing an optimal working relationship with the Congress. 
The ACS is part of the decennial, and as such must be planned 
and executed in close collaboration with the Congress. How best 
to accomplish this requires more time than we can devote today. 
To anticipate, just one of the many issues is how to balance 
concerns about minimizing respondent burden with requests for 
additional information. Just as some in Congress want minimal 
data collected, others have expressed the need for additional 
questions.
    The only new question added to census 2000, that concerning 
grandparents as caregivers, was required as part of the welfare 
reform legislation. The Census Bureau determined that the data 
should be collected on a sample basis, although some Members 
supported asking it of all households. And, there was a sense-
of-the-Senate resolution just a few months ago expressing 
strong concern that the marital status question had been moved 
from the short to the long form in census 2000. So we must 
always look for ways to balance these competing pressures, and 
we look forward to working with the Congress to do that. There 
are, of course, other congressional oversight issues. My point 
here is that this is an issue to be addressed.
    Second, the Census Bureau will need to establish strong, 
ongoing relationships with a large number of key stakeholders. 
The interagency committee launched by the OMB is a very timely 
and welcome initiative. We will want to maintain the community 
partnership program, which has proven to be so very effective 
in the early ACS test sites, as it has been for the census 
2000. More specifically, there can be no successful ACS unless 
local and regional governments are on board. We are confident 
that they will be. And we will want a working relationship with 
the private sector so that any number of reciprocal benefits 
can be realized, especially with the survey and data 
dissemination industries.
    Finally, the Census Bureau will redesign its advisory 
committee structure that has served it so well in census 2000 
in order to draw upon wide-ranging expertise in the conduct of 
the ACS.
    Third, timing. For a number of operational and planning 
reasons, it is critical that we maintain the schedule for ACS 
recommended by the Census Bureau. Initiating the ACS in 2003 
allows us to be confident about key design issues for Census 
2010 in advance of when those decisions have to be made. This 
in turn will allow for a high level of congressional comfort 
about removing the long form from the decennial operation.
    Fourth and finally, the privacy issue. Long form questions 
are not less, nor more, intrusive because they are asked in the 
ACS rather than the decennial environment, but the environments 
are wholly different. It matters whether 20 million housing 
units are asked long form questions in one intense timeframe or 
whether those questions are asked in a series of monthly 
surveys. One big difference. Instead of having a large army of 
temporary enumerators, the ACS field interviewers will be 
highly trained permanent staff who will be better prepared to 
deal with the public's questions about the questions.
    As I said at an earlier hearing, the Census Bureau's 
experience in conducting hundreds of surveys, some much more 
demanding than the long form questionnaire, gives us confidence 
that once the public understands that their answers are 
protected by law and that every question asked serves an 
important purpose, they do perform their civic duty to respond. 
In fact, our experience thus far with the ACS has been that our 
trained interviewers have achieved good cooperation with few 
complaints from the public.
    I believe it is hard to sustain the argument that 
government data collection is an invasion of privacy when there 
are such strong protections of the data, when they are used 
only for statistical purposes, not for regulation or law 
enforcement, and when each questionnaire item is linked to a 
program that the people's representatives have enacted.
    I take note that some Members of Congress believe that 
long-form-type questions should not be asked, period. That is 
an issue for Congress to resolve. It is not for the Census 
Bureau to decide what kind of society we should be or even 
whether we should have timely and relevant data to make that 
vision possible. It is our role, however, to inform the 
Congress about the most efficient, effective, and modern ways 
to collect data, once the administration and the Congress have 
determined which data are necessary. That is what we are doing 
today by presenting our plans for the ACS.
    Mr. Chairman, in conclusion, I reemphasize my initial three 
observations: The American Community Survey is the single most 
important innovation in Federal household statistics in more 
than a half century and positions the country well for the 
century we are just entering.
    With the ACS in place, the decennial census can concentrate 
on its core constitutional task, population counts for 
apportionment and redistricting, and do so less expensively and 
more efficiently.
    The ACS works.
    Mr. Miller. Thank you.
    [The prepared statement of Mr. Prewitt follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.013
    
    [GRAPHIC] [TIFF OMITTED] T3836.014
    
    [GRAPHIC] [TIFF OMITTED] T3836.015
    
    [GRAPHIC] [TIFF OMITTED] T3836.016
    
    Mr. Miller. This is a significant issue we are undertaking, 
and I think this next Congress will be addressing it in even 
more detail, and I am glad we have an opportunity toward the 
end of the 106th Congress to begin the congressional oversight 
part of that responsibility.
    Let me start with--I have a number of different questions, 
and a lot of it is getting a better understanding and 
justification for some things. When we talk about sample size 
and response rates, my understanding is that it is 3 billion in 
a year. First of all, is--that is a stratified sample. For 
large population areas, will we get usable information?
    Mr. Prewitt. For any unit of the country or population 
group of 65,000 or greater, we will have highly reliable 
estimates of its characteristics after 1 year.
    Mr. Miller. So this rolling average we would combine year 
after year?
    Mr. Prewitt. So by combining data for 2 to 3 years, we will 
be down to 20,000. By combining all 5 years, we will be down 
below 15,000. Very small communities.
    Mr. Miller. What is the impact of having a rolling type of 
average?
    Mr. Prewitt. It improves the statistics in some respects 
because you smooth out some irregularities in data collection. 
Obviously, most questions will work very well by averaging 
across 3 to 5 years. Some questions will have to be examined. 
That is what the interagency committee will be doing. In fact, 
do you want us to go back and forth?
    Mr. Miller. Please. And describe the interagency working 
group.
    Ms. Wallman. We established an interagency committee 
officially about 2 weeks ago to help us in the process of 
examining the content for the American Community Survey. We had 
a similar process in census 2000, bringing together the 20 
agencies that use census data to implement legislation, as Dr. 
Prewitt described in his statement to you. Using that same 
model, we have brought together not only a set of statistical 
agencies--the Bureau of Labor Statistics, the National Centers 
for Health Statistics and Education Statistics, and so on--but 
also several agencies in agriculture, Health and Human Services 
and other Departments that administer Federal programs using 
the kinds of information that the American Community Survey 
will provide.
    One of the things that we need to do is repeat the process 
essentially--and perhaps enrich that process--that we carried 
out in looking at the census 2000 content for the long form. We 
need to review each of those data items against its statutory 
bases to look in particular at things such as, given the ACS 
environment, would we need to collect that particular data 
element every single time; or given the annual nature of the 
American Community Survey, could there be some adjustments in 
that.
    That is a process that we began in our meeting on July 13 
and look forward to carrying out further. We will have a lot of 
dialog not only with that committee, butt with other users 
outside, such as the Congress, as we proceed.
    Mr. Miller. Will Congress have any role in this?
    Mr. Spotila. The intention is to work closely with the 
Congress. Although it is an interagency committee, I think the 
intention is to communicate regularly, to be responsive to your 
interests and to other Members who would like to participate, 
and to try to work for a meaningful, cooperative approach.
    Mr. Miller. The sample size issue, how do we come up with 
that number? We are talking about a 30 million number over a 
10-year period. Does it need to be that large? Could it be 
reduced in future years? I want to ask some questions about 
cost when we have time.
    Mr. Prewitt. The sample is designed so that after 5 years 
we will have the same degree of statistical resolution as we 
now have for the long form data, and then by averaging the 5 
years, we have that every year.
    So we actually don't think of it as a 30 million sample 
over 10 years, but a 15 million sample over 5 years because it 
is 5 years' worth of data which will allow us to bring it down 
to the current geographic refinement that we now have for long 
form data.
    So that is how the sample is designed. Obviously if you cut 
the sample in half, then you would get to the degree of 
resolution you want after 10 years, but you are now averaging 
across 10 years, and so the data simply get less stable. We 
believe if we are going to do this, it makes more sense to make 
sure that we hit that point of statistical resolution after a 
5-year cycle.
    Mr. Miller. This data is usable at the census tract level?
    Mr. Prewitt. That's correct. That is roughly the degree of 
resolution. It is roughly 15,000 people, any community of 
15,000, or fewer, even down to the census tract level, which is 
what the long form takes us to now.
    Mr. Miller. Is that needed? Is there any reason----
    Mr. Prewitt. Well----
    Mr. Miller. I am asking you to justify the sample size.
    Mr. Prewitt. The first witness you had put it on the table, 
the issue of getting good rural data. The issue is not rural 
data, it is geographic data of low population density. You can 
have very spread-out suburbs, not just rural areas. You can 
have inner cities, because of their characteristics; they are 
more commercial than residential where not very many people 
live.
    The real issue is what is the population density of an 
area. If we want geographically refined data, then it takes 
this kind of sample size. Congress could decide to deal with 
half the sample size and only bring it down to a population of 
50,000 or 45,000, but I would ask you to talk to your Rural 
Caucus representative.
    Mr. Miller. I want to ask some questions about all of the 
questions. Do we need them in that detail at the tract level 
section? Obviously you do surveys that don't go to the tract 
level. Do we really need this large of a sample size?
    Ms. Wallman. If we are to provide the level of resolution 
that we are talking about here, we need this large a sample 
size. If we want to talk about alternatives that would give us 
less detailed information for these lower levels of population 
density, then there are alternatives that could be explored.
    Mr. Spotila. There are tradeoffs. If we want quality 
information in a timely manner so we can inform decisionmakers, 
then our best professionals have come up with their best 
judgment of what that sample size should be. If we work back 
from that because of cost reasons or concerns about how many 
people are being asked how many questions, then we have 
tradeoffs. These tradeoffs will be reflected in the information 
that we gather and, therefore, what can be provided for 
decisionmaking.
    Mr. Miller. This gets into the question of cost and other 
factors and privacy. I think that needs to be discussed some 
more later.
    Let me just ask--should we leave to vote?
    Mrs. Maloney. I have one question. Representative Collins 
feels very passionate about his legislation, which would 
basically make the long form voluntary. I want to ask you what 
you think of his proposal and how that would affect the long 
form now, and what do you propose for the American Community 
Survey? Do you propose to make that mandatory or voluntary, and 
really to just followup on the testimony of Mac Collins on 
essentially prohibiting any penalizing of people and not making 
it mandatory?
    Mr. Prewitt. First, the American Community Survey has been 
conducted under the umbrella of the decennial framework. 
Therefore, it has been conducted as a mandatory exercise. It 
has been field-tested in that way.
    The points that I would make in response to Mr. Collins are 
as follows: First, as Mr. Davis said, there is obviously a 
question of responsibility and obligation in society as well as 
rights and benefits. We ask so little of our citizens that it 
doesn't seem to me to ask for 45 minutes every 10 years to help 
create the kind of data that we need in this society is a big, 
onerous task. I know that it has been described that it takes a 
long time, but it takes 45 minutes, maybe an hour, every 10 
years. Even under the ACS panel, no household could possibly 
get this survey more than every 5 years, and most will never 
get it. It strikes me as odd that we can't ask our citizens 
that much.
    On the other hand, it is possible for us to conduct this in 
a nonmandatory fashion. I don't think that you can separate 
mandatoriness from some sort of penalty whether it is imposed 
or not. And indeed, to go back to Mr. Collins' testimony, the 
reason that the Census Bureau said that it would not try to 
impose fines, is that we are not an enforcement agency. That 
would have to be a decision made by the Justice Department. 
Even if we wanted to, we could not have. That is why we were 
insistent that the Census Bureau was not going to impose fines; 
we can't. It is not our job.
    But I think the thing that you mentioned, Congresswoman 
Maloney, in your question to Congressman Collins, is it will be 
more costly.
    The reason one wants to pause before taking the mandatory 
framing off the table, is that by saying it is mandatory, what 
we really are saying is that the Federal Government takes this 
seriously. That is why jury duty is mandatory. That is why 
military conscription is mandatory. We take very few things 
seriously in our democracy. I would urge us to pause before we 
said to ourselves that we don't take getting the fundamental 
data that we need for this country seriously. I don't think 
that it is intimidating, and it is not only because of cost or 
quality issues, although data will be affected if it is not 
mandatory. I think Mr. Collins is just wrong in saying that by 
making it mandatory we reduce the level of cooperation with the 
census. We know better because we have done a lot of studies on 
this. You get a higher response rate and cooperation; but also 
in the field, people take it seriously because the government 
has said, ``this is something that we believe strongly in.'' I 
think there are lots of things at play.
    I do want to say, however, if the U.S. Congress decides 
that this ACS should be voluntary, that we would be able to get 
reasonably good data. It would not be as good as it is under 
the mandatory rulings, and it would be more costly. We would 
have to have more knocking on the doors and followup work in 
order to get the quality of data that we think that we owe the 
country, but it could be done.
    Mr. Miller. Let's take a 10 minute recess so we can go 
vote, and then we will continue with the answers here.
    [Recess.]
    Mr. Miller. Let's return to questioning. Mrs. Maloney will 
be back shortly. I will continue. There will be another vote in 
about 45 minutes. We will just proceed. We have to finish 
everything by 1 p.m., and we have a very important third panel 
that we want to save time for.
    On the sample questions, and I am sure that there is more 
information available and you will be clarifying the 
justification for it, sample size, I don't know if you want to 
add anything else.
    Mr. Prewitt. Just one other sentence, Mr. Chairman. I was a 
little more cautious than I should have been. When we say 
census tract level, we are talking about populations that can 
be in the neighborhood of 4,000 to 5,000. We primarily talk 
about 20,000 to be very cautious, but we will be talking about 
small jurisdictions having data then on an annual basis. So it 
is a fundamental transformation to produce small area data, and 
that is what sample size is about. If you want to pull it up to 
higher levels of jurisdiction, we can cut the sample. It is an 
issue of tradeoff, as John said.
    One other sentence on the mandatory issue: it is important 
for us to understand that we do a lot of very important surveys 
for the country--the Census Bureau does and HHS does and the 
Department of Justice does, which are voluntary. The difference 
in the ACS and all of these other important surveys is that the 
American Community Survey is the platform against which all of 
the other surveys create their statistical controls. So if it 
is weakened by low response rates or item non-response, all of 
the other surveys will also be weakened. We would want to be 
very prudent and cautious before we lifted the mandatory part 
off of ACS. It would be costly not just the ACS in terms of 
dollars and accuracy, but it would have implications for all of 
the other surveys that we do.
    Mr. Miller. Since we don't enforce it, what difference does 
it make? As Mr. Collins said, and as you have said publicly, 
you have not enforced it since 1960, and it was for one person. 
What impact does it really have? Can we focus group in a test 
sample to see if it makes a difference? I understand the 
psychological thing.
    One thing about the sample size, my understanding is that--
because you don't have the fixed deadline like April 1, you can 
do a second mailing and telephone, and then you will knock on 
doors. But some of the mail response rates even with the second 
mailing were not that high. We don't have the advertising 
campaign, and maybe that is an indication. But the mail 
response rates are 50, 60 percent. I think they projected with 
a second mailing under the decennial we would be close to 70 
percent.
    Mr. Prewitt. In the high 60's.
    Mr. Miller. Do you have a comment, and what can we do to 
improve them?
    Mr. Prewitt. On the mail-back response rate, and we are 
comparing ACS to long form mail response rates, what we are 
hoping is that as this ACS gets embedded in the counties and 
the local leadership understands the importance of these data 
on a regular basis, they themselves will become a part of our 
promotional campaign. We will have a standing partnership. We 
cannot use mass advertising, obviously, for something like 
this, and we will hope that the local community will take 
leadership in promoting the importance of it. But I don't think 
that we have a magic way. We know that mail-back response rates 
are simply down in the industry across all kinds of surveys. We 
are pleased we do as well as we do with the ACS questionnaire, 
even in the 60's.
    But I think you are right. We will get better at the 
targeted second mailing, how we describe it and urge it, 
because we can go so quickly to the CAPI instrument, the 
computer assisted personal interview, and the computer assisted 
telephone interview, and we still end up with 97 percent. It 
will be more cost-effective if we get people to mail it back 
in. We have to create a presumption that this is part of what 
the society needs in the 21st century.
    Mr. Miller. Mrs. Maloney, would you like to continue?
    Mr. Spotila. I would like to add one comment. Just to 
clarify, we have not taken an official administration position 
on the Collins bill since it is so new. We are clearly going to 
take these views into consideration, but I did want to clarify 
that we were not stating an administration position at this 
point.
    Mrs. Maloney. In your testimony, Dr. Prewitt, you said that 
the American Community Survey, you got a 96 percent 
participation? That is astonishing. I would like to ask how you 
got it; and No. 2, would it affect the participation if we did 
away with the long form, because, as you know probably better 
than anyone else in this room, the tremendous effort that we 
put into heightening awareness and a sense of responsibility to 
put out the long form. I thought the advertising campaigns were 
absolutely great. Many constituents and people have commented 
on it. The census in the schools was my personal favorite. 
There were programs that we tried to put forward to raise the 
awareness of the long form. We had everything coming together 
with the census. If you don't have that there, would that have 
an affect on the response of the American Community Survey, and 
then how in the world did you get a 97 percent response? I 
think that is astonishing.
    Mr. Prewitt. I think a number of things went into that. It 
is a slightly different design. It is mail-out/mail-back, but 
then it is a targeted mail-back to nonrespondents, and so that 
has a little bit of a bump, and then it is a targeted telephone 
interview and then a targeted personal interview.
    The big difference is we are dealing with a very well 
trained professional staff, and they know how to find people. 
They know how to explain things more quickly. It is 
fundamentally different to conduct a survey with your 
professional permanent trained enumerators than this army of 
volunteers. It is different. That is why we continue to get at 
the Census Bureau quite high response rates, and it is partly 
because of that.
    We are particularly pleased with the ACS response rates in 
this trial period because we are also plugging people to 
respond to the census.
    Mrs. Maloney. If you didn't have that environment, do you 
think that it would drop dramatically?
    Mr. Prewitt. It is an interesting question, whether the 
census environment helped us improve the response rate on the 
ACS, but we are simply putting more of a burden on people who 
got both sets of questionnaires. We made sure that no ACS 
respondent also got the decennial long form. That was some 
tricky engineering to make certain that did not happen. We 
didn't want anybody to get both the long form and the ACS.
    What we are hoping for, Congresswoman Maloney, is that by 
embedding the ACS in the community with a community ownership 
of it by local leaders, mayors and commissioners, is that what 
we will get is a felt sense at the community level that this is 
critical data and we want high response rates.
    Mrs. Maloney. We talked earlier about the questions--about 
the questions on the long form, and I would like to ask all of 
you if you would comment on what the approval process is for 
the questions that will be on the American Community Survey, 
and will it be different from the questions on the long form, 
and at what point would it be appropriate to have input from 
Members of Congress?
    Mr. Spotila. Broadly in terms of the ACS questionnaire, the 
starting point, is a set of questions on the decennial long 
form. The interagency committee will be looking at the 
questionnaire to examine whether it is appropriate to continue 
in that way or to modify it. That process is one which we hope 
will be inclusive. The committee will not only discuss it among 
themselves, but will communicate with the Congress and people 
in the private sector to try to get other viewpoints on this. 
Ultimately, recommendations from the committee will lead to a 
submission that OMB will review under the Paperwork Act. There 
would be a final approval through that process where we would 
assess the recommendations and what has gone into them, 
including comments that were received throughout the process. 
That is very similar, I think, to the decennial census process.
    One of the issues that is still under discussion is the 
precise way in which the committee will interact with the 
Congress. The ACS questions, we certainly feel, need to be 
discussed with the Congress. We are still open as to the best 
way to do that. That is one of the issues that the committee 
will be talking about, and we are interested in your thoughts 
on that.
    Mr. Miller. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
If this question has been asked and it is redundant, let me 
apologize.
    Dr. Prewitt, let me just see if I understand. If we were to 
replace the long form with the American Community Survey, let's 
just say that, would we use it as extensively as the long form 
is currently being used in terms of the number of surveys that 
would be done? Are we talking about more responses, fewer 
responses? Are there any projections in terms of that?
    Mr. Prewitt. Yes, sir. The way that it is designed, in a 5-
year period we will be talking to approximately the same number 
of people we now ask the long form questions of, actually a few 
fewer, but give or take about 15 million households over a 5-
year period. Then the data, we believe, will be much more 
extensively used because, as the witnesses said earlier, it is 
available almost immediately, and it is eventually available 
every year down to very small jurisdictions, maybe as few as 
5,000 people.
    But the burden on the American public in a 5-year period 
would be similar to what the current long form burden is. 
Because we would like to make the data more timely by 
continuing to roll the sample through, in effect you are 
increasing the burden on the American people over a 10-year 
period. Now, they won't feel it that way because it won't be 
that intense environment. If you add up the minutes that people 
use to answer the ACS questionnaire, it will certainly be 
higher than the number of minutes invested in the long form in 
the decennial census environment.
    But it does really improve the possibility of reengineering 
the decennial process so we can make it the civic ceremony it 
is and look for 100 percent coverage with new technologies, 
because doing the long form in a decennial environment is a 
very complicated part of our operations. So it is better on 
both sides. It is better for long form data, and it is better 
for the basic population count that goes into the apportionment 
and redistricting numbers.
    Mr. Davis of Illinois. If the data is more timely, does 
that necessarily make it more reliable?
    Mr. Prewitt. In some respects it does, because all of the 
data can now be summarized across a 4 or 5-year period, even if 
you don't--let me just say it can be summarized. You are 
reducing some of the variability that you get from responses. 
You know, when you are doing the long form, suddenly it is 3 
p.m., on a Tuesday. We can only take that. That has to sit 
there for 10 years. If you are summarizing across different 
respondents across a 5-year period, you minimize some of those 
erroneous fluctuations and biases that can occur, so we think 
the data will be more reliable.
    The other big difference is that you are doing this with a 
permanent, professional, trained staff, which does give you 
more reliable data than doing it with a large army of part-time 
temporary employees.
    Mr. Davis of Illinois. I assume that the updates--for 
example, I often will make use of data in terms of saying when 
the census was taken in 1990, well, this is 2000. What does 
that really mean in terms of the actuality of what has taken 
place in some communities or some instances? And so we really 
won't be talking about information that is 10 years old because 
we will have these constant updates in terms of the data 
constantly coming in; is that correct?
    Mr. Prewitt. Exactly.
    Mr. Davis of Illinois. I have no further questions, Mr. 
Chairman.
    Ms. Wallman. May I add one point to complement something 
that Dr. Prewitt said? We have focused on 15 million sample 
households for the ACS, 30 million over 10 years, in contrast 
to 20 million for the census 2000 long form. But the 
complementary point should be underscored that we are still in 
the process of evaluating the specific content for the American 
Community Survey in the long run, and we may or may not need to 
ask every single question every time when we are in this annual 
American Community Survey environment. So the burden on 
individual households of responding to this could be, in fact, 
less than we currently perceive in the current long form mode.
    Mr. Davis of Illinois. I appreciate your comment because I 
think what I am getting, at least for me, is some assurance 
that we might be talking about something that is going to be 
more beneficial as opposed to simply responding to some 
criticism that we might have gotten in relationship to the long 
form, which I think is very different.
    Mr. Spotila. That is an extremely important point. This is 
not a defensive reaction to criticism of the decennial long 
form. It is a result of a lot of careful planning and thought 
on how we can produce information that we need on a timely 
basis and do it in a way that makes sense. The Census Bureau 
should be complimented, along with those in the Federal 
statistical community that have worked so hard to do this.
    Mr. Miller. The timeliness of the data, and this gets back 
to the sample question, do we need to take 3 million or 3 
million over 2 years, ideally you have your data on a larger 
sample which gives quicker data, but it gets down to a question 
of cost. I want to talk about that. We have to address the cost 
over a 10-year period. This goes into effect 2006.
    Mr. Prewitt. 2003 we would like to field the first.
    Mr. Miller. So we are looking at a 10-year period because 
it will reduce the cost of the decennial.
    We mentioned the postcard census, and you mentioned the 
Internet. How do you envision how the decennial will be done in 
2010, assuming that we have the American Community Survey and 
we are down to those few basic questions?
    Mr. Prewitt. Well, we do obviously think that we would use 
the Internet much more than we used it in 2000. We are looking 
at using the Internet in the ACS environment, too. We hope that 
the Internet would be one of the major ways in which people 
responded to the American Community Survey questionnaire. We 
have that in the field right now. We will be reporting on it 
soon.
    Looking forward to 2010, it is so complicated because you 
don't know what the technology is going to be like then; and we 
talk about the Internet like it is going to be the Internet in 
2010. We know that technology is moving so very, very fast. We 
have a group who tries to track this and pay attention to it. I 
think we would be able to use more administrative records.
    Now we are trying to get to the hard-to-count population 
groups, and we may well be able to use--the way we do with the 
military, we go to administrative records. Now we are trying to 
get the population count and very basic information like gender 
and race and ethnicity, if we still need those. We certainly 
need it now to administer the Civil Rights Act of the 1960's.
    If that were to change, that would change what we need on 
the short form. If all you need is a population count and 
enough evidence about the population count to make certain that 
you have reliable data, we can go to a very simple form to get 
a population count in the mail system, if we are still using 
the same mail system in 2010. And then maybe, Mr. Miller--you 
have been concerned about this, the second mailing--we may be 
in a position with only the short-form data and with our much 
better address list and a much better technology to track 
things to target a second mailing.
    I would think that we could do that in 2010, which we did 
not think that we could do in 2000. But if you can do a 
targeted second and third mailing, you can do more efficient 
followup work. You can redesign the entire thing with the same 
level of coverage with less expense. I don't know whether you 
still need the big kinds of promotional and advertising effort. 
It is hard for me to know how important that kind of apparatus, 
which was very important to 2000, would still be.
    Mr. Miller. I want to go back to the cost question, and I 
know we have this 10-year number. What is the 10-year cost of 
ACS combined with the decennial, versus the decennial with the 
long form?
    Mr. Prewitt. I will tell you our goal, and we are working 
very hard on it. We are obviously poring through the ACS, and 
with regard to the second mailing and telephone followup, we 
are poring through that data.
    Our goal is to come back to the U.S. Congress and say that 
if you take the current decennial budget, which we know is 
about $6.5 billion, and you put that into constant dollars in 
2010, we would be able to come to you with a decennial design 
and an ACS design which would be within that budget. We would 
be giving much more timely data and better long form data 
because we are now doing it every year rather than every 10 
years, and then we would get the decennial head count, and we 
would love to be able to present to you a design that would do 
that within the same framework.
    Mr. Miller. So the cost would be equivalent, you're hoping?
    Mr. Prewitt. That is what we are hoping.
    Mr. Miller. It costs $250,000 a month, and what kind of 
infrastructure expansion would be needed as far as field 
offices, regional offices?
    Mr. Prewitt. It is very important--that is a very important 
question. We will do the ACS out of our current structure. 
There is no additional infrastructure we need. We obviously 
need enumerators to do it. Second, we do all of the data 
capture in Jeffersonville.
    The only kind of infrastructure that we need for the ACS 
that we don't need for the normal surveys is the partnership 
structure. We would like to keep some of our local partnership 
people to maintain the address file. It is very key to 
maintaining the address file, the ACS.
    Mr. Miller. The address file we are using for this 
decennial, the plan and intent is to keep it current?
    Mr. Prewitt. Absolutely, every year current. We are working 
with the local county people so there is no extra 2010 expense 
if we are still using a mail-back.
    Mr. Miller. You have that built into your costs?
    Mr. Prewitt. Yes. That is what part of the test sites are 
telling us.
    Mr. Miller. What kind of costs are you projecting for the 
2003? ACS is $40 million?
    Mr. Prewitt. I think it is $20 million; $25 million is what 
we asked. The house mark is $20 million.
    Mr. Miller. What are you projecting for 2003 when it is 
fully operational?
    Mr. Prewitt. I would love to give you that number. We 
simply have to get the field data analyzed, and that is what we 
are doing right now. We think by the time we present the 2002 
budget, which will be in the standard appropriation cycle, that 
we will have a very good indication of what the 2003 budget 
will be, but right now it would be--the error term is too high.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Go ahead, Mr. Chairman, you are on a roll.
    Mr. Miller. This is almost like a work session.
    Will you replace any surveys with this? Is that some of the 
intent? Are there any surveys that could be incorporated into 
this that would no longer be needed?
    Ms. Wallman. I think at this stage we are prepared to say 
two things on that topic. First, what we anticipate at the 
moment is not so much replacement of ongoing surveys, but more 
efficient ways to carry out some of our major household 
surveys.
    The second thing that I would add is that we are now 
beginning to look at opportunities where we could use the 
infrastructure of the American Community Survey to avoid having 
to develop additional new surveys. If the Congress has a 
requirement for a new piece of information, for example, for 
the Children's Health Insurance Program, we could use the 
vehicle of the American Community Survey to collect that one 
additional piece of information in the framework of the 
American Community Survey that has the other basic demographic 
information we need, rather than fielding a whole new effort.
    We see those kinds of opportunities, and that is exactly 
the kind of thing that our interagency group will be looking at 
and will be looking to work on with the Congress and other 
organizations that need to field new kinds of information 
collections.
    Mr. Miller. What questions need to be included is another 
issue, and I know we had all of the justifications 2 years ago, 
and I don't think that there was much input from Congress, and 
the question is how much is really needed at the tract level? 
You say that you are in the process or are planning on doing a 
review of that issue, and I think it is very legitimate. The 
temptation is to ask more questions. There are 400 citations 
now requiring it. The temptation--so you have a tough job.
    Mrs. Maloney. And that is from us.
    Mr. Miller. I know.
    Mrs. Maloney. It is not their fault.
    Mr. Miller. I know.
    As we plan for this, we need to say do we really need this 
at this level of detail.
    Mrs. Maloney. Reclaiming my time, that would be a good 
focus of a committee hearing that we could have, all of the 
various--or just a meeting on the citations and just our own 
review of whether or not we need them.
    Mr. Miller. You might expand how you did it for this 
census. I know that you scrubbed it and you did focus groups, 
and I don't think that people appreciate the difference until 
you look at the 1990 census form, which was done before our 
involvement, and the Bureau did a good job. But the plan is to 
scrub the questionnaire and decide how?
    Mrs. Maloney. Reclaiming my time, remember that we all got 
a huge booklet 2 years in advance of the completion before they 
printed the forms to go out for our own input and our own 
questions or suggestions or whatever, and as we all know, it 
was exactly like the census that Bush and Reagan oversaw with 
the exception of adding one new question because of welfare 
reform and deleting four.
    Mr. Miller. Would you comment on what you are going to 
review, and it may take legislation.
    Mr. Spotila. These are important issues. We are looking 
forward to the interagency committee working closely with the 
Census Bureau to take a look at these issues. We know that 
there are 130 laws which require various kinds of information. 
The potential is there for more, but as to the decision about 
how much detail we include in the questions, which questions 
should be on the American Community Survey versus some other 
survey or asked in some other way, it is fair to have a 
discussion about whether there are alternatives to do the same 
thing. That is not to minimize the fact that if by law the 
information is required, then we need to obtain that 
information.
    But there is also going to be an ancillary review that will 
be necessary. If the American Community Survey proves 
successful, and if this is an approach that we want to follow, 
we collectively, including the Congress, then it will also be 
necessary to review statutes that make references to the 
decennial census. We are going to need to determine whether any 
other kind of legislative adjustments will be needed to make 
sure that we cross-reference properly.
    This is a major shift. We think that it is a positive one. 
But there will be a very strong need for this process to be a 
collegial one with the Congress. In working sessions with the 
Congress not only like this one, but even outside the context 
of a hearing, we can have this kind of a discussion and 
identify what the choices are and get some meaningful input as 
to perhaps how it can best be done.
    We are going to rely heavily on the Census Bureau as the 
lead on this to develop a lot of this information. They have 
been very good at doing it in the past, but we are conscious 
that this will be a successful process only if it is inclusive 
and very cooperative with the Congress.
    Mr. Miller. In Congress if, for example, the welfare reform 
bill had the question about grandparents, do they make that 
decision unilaterally?
    Your staff is nodding their heads behind you. Maybe 
questions get added without us realizing. That may be 
legitimate, but is that needed at the tract level?
    Mrs. Maloney. Reclaiming my time, I tell you that the 
welfare reform question is a tremendously important one, 
particularly in New York where many children are having babies 
and their mothers are not there, and the grandparents are 
becoming the mothers. This is widespread, and to understand the 
ramifications of that is very important.
    Personally, I fail to understand the criticism of the long 
form. I got the long form. It didn't take me 45 minutes. I 
think it probably took me 25, and I considered it a great honor 
to fill out the form, and they were reasonable questions about 
real information that planners would need for the city, for the 
State and for the Federal Government.
    But--so I welcome as much oversight, and I think oversight 
is important and hearings, and maybe we should send three or 
four books to the Members of Congress as opposed to one book 2 
years in advance. Maybe we should send a book a year and have 
more discussion about it.
    But I have heard one complaint about this glorious American 
Community Survey which I would like to ask a question about. A 
member of the private sector contacted my office and he alleged 
that the American Community Survey will give the Census Bureau 
an unfair competitive advantage over private sector research 
firms in competing for government contracts. What is OMB's 
position on this issue? Do you believe that such a competitive 
advantage will exist; and if so, what can be done to remove 
that advantage so that the private sector can compete fairly 
for government contracts?
    Mr. Spotila. This is a point that we are going to be 
looking at and have the committee look at. We know, if the 
American Community Survey is introduced and implemented on a 
broad scale, that we will get a tremendous amount of very 
useful information that the private sector will benefit from. 
Even people in the research business, if you will, will benefit 
from it.
    But there can be issues. Since the Census Bureau needs to 
keep information that it collects confidential, if it is going 
to put some of this information to use in a way that benefits 
the American people, it may find itself doing new things with 
this new information. Some of the new things are being done in 
the private sector now by companies that charge for them. Some 
perhaps operate less efficiently.
    It is a fair question, and I think that the committee 
should examine this. We should have some discussions with 
affected parties. We certainly don't think that it is 
appropriate that the government compete with the private sector 
in areas where the private sector can and should have the lead, 
but there are going to be other areas where the government can 
serve the American people very well by getting them better 
information and getting it to them less expensively. There 
could be a public purpose in doing that.
    Change always brings ramifications that one has to work 
through and develop a better understanding of. We all have to 
adjust to that change. I think it is a fair question and one 
that the committee should look at and will look at.
    Mrs. Maloney. Would you like to comment, Dr. Prewitt?
    Mr. Prewitt. I, of course, came from that industry. That 
is, I was director of the National Opinion Research Center for 
5 years. I was in active competition with the Census Bureau at 
that time for government contracts. I really strongly believe 
that the private survey industry is a critical source of 
innovation of survey methodologies, of new ideas and so forth, 
and that the government survey efforts will be harmed if we 
don't have a robust private sector survey industry.
    I think the issue that has been raised really--there are 
three or four different dimensions of it. They have to do with 
screens for certain rare population groups or small-size 
population groups and address files, the degree of detail that 
we can provide the private industry. You will shortly hear from 
Richard Kulka from RTI who will address this issue with you. 
But I want to put the principle in play that the Census Bureau 
itself really does work closely with our colleagues, 
statistical and survey colleagues in the private sector.
    I think those problems can be worked out. People from 
survey houses understand that. We simply have to do that. We 
have started those conversations, and I am convinced that there 
is a way to do it, even honoring our title 13 obligations which 
we have to honor.
    Mrs. Maloney. Does the Census Bureau compete with the 
private sector for government contracts now to gain data? What 
areas do you compete with now in the private sector for 
government contracts?
    Mr. Prewitt. Yes. If the National Science Foundation wants 
to collect data on earned doctorates, they may come to the 
Census Bureau to ask how we would do it, or they may go to the 
private sector and ask, how would you do it? In that sense we 
are in a competitive situation.
    Mrs. Maloney. Is there a process where you actually bid 
against the private sector, or is it just a choice between--by 
government?
    Mr. Prewitt. We can't bid, so we don't bid.
    Mrs. Maloney. So they can make an in-house decision that 
you would be a better vehicle?
    Ms. Wallman. I would be happy to add to that slightly. In 
general we are talking about major surveys that involve the 
household as the unit we are querying. We have several surveys 
across the government, such as the Health Interview Survey that 
is conducted by the National Center for Health Statistics, 
education statistics surveys, and so on, and the choice that 
these agencies face is, do they go to the Census Bureau and 
take advantage of the household survey frames that the Census 
Bureau holds as a result of its ongoing work, or do they go to 
the National Opinion Research Center, Research Triangle 
Institute, and so on, and have a competition among those 
outside organizations.
    We use both mechanisms extensively. There are in some cases 
household surveys conducted by the Census Bureau in partnership 
with the other statistical agencies. The Current Population 
Survey that produces the monthly unemployment numbers, the 
biggest of them, is a partnership between the Bureau of Labor 
Statistics and the Bureau of the Census.
    In many other cases, particularly when we are doing 
longitudinal work, the agencies choose to partner with National 
Opinion Research Center, Research Triangle Institute, Westat, 
and others of that ilk.
    Mrs. Maloney. Thank you.
    Mr. Prewitt. Certainly the private sector has enormous 
competitive advantage vis-a-vis the Census Bureau. They pay 
better salaries. They can sometimes work more quickly and 
efficiently because we have a lot of constraints in terms of 
how a Federal agency functions, of course.
    The fact is that the Census Bureau has been around for 
about 100 years doing survey research for the Federal 
Government. The private sector industry doing government 
contract survey work began in the 1950's and 1960's, and it has 
grown like that. This is an industry that has been enormously 
successful, and very importantly so for society, doing 
government contracts over the last 30 or 40 years. So it is not 
as if they are not there. They are growing and robust. They are 
statistically sophisticated, they do things we cannot do, and 
they pay much better salaries.
    Mrs. Maloney. Ms. Wallman, you usually come to see me about 
the Statistical Efficiency Act. This has been a project that 
you have promoted and worked on for many years, and I am 
pleased that the House finally passed it last year. What effect 
will the final passage of that have, if any, on the American 
Community Survey? Would you comment on that? You were so 
dedicated to passing this, so I just had to ask you about it. I 
applaud you and your hard work in that area.
    Ms. Wallman. Thank you, Congresswoman Maloney. I always 
appreciate the opportunity to say more about the Statistical 
Efficiency Act which we are delighted had bipartisan unanimous 
support from the House of Representatives, and we are still 
working to get passed in the Senate.
    I want to underscore a couple of things in that vein: 
First, the Statistical Efficiency Act first and foremost gives 
statutory protection for the confidentiality of statistical 
information that is collected by several agencies, a privilege 
that the Census Bureau currently enjoys but some of its sister 
agencies do not.
    Second, we do see this as part of the package of 
improvements that we can bring to bear to more efficiently 
gather information and ultimately to more efficiently provide 
information for public use.
    The American Community Survey is a fundamental piece of the 
statistical collection infrastructure that ultimately, with our 
Statistical Efficiency Act in place, could bring us some of 
those benefits that we see.
    I want to take the opportunity of this question to 
underscore that in addition to the statutory confidentiality 
protection in the Statistical Efficiency Act, in any case where 
we are proposing to use the information either to go back to 
respondents for the kind of sampling that we have been talking 
about here from the American Community Survey or to use the 
American Community Survey in concert with statistical programs 
of other agencies, we will always use the same practice we do 
now to inform respondents of these potential uses of the 
information before we collect the information from them. I 
think that question has been raised in some of the prehearing 
dialog. That is a policy which has been in place that we would 
keep in place, and we would not intend to go out, collect the 
American Community Survey, and then use the information in 
additional ways without prior notification to respondents.
    Mrs. Maloney. Thank you. My time is up.
    Mr. Miller. Let me make one comment. Following up on that 
question about the private sector, I think some of the concern 
is that American Community Survey may give a huge competitive 
advantage to the Census Bureau because it gives a new ability 
on an ongoing basis to have a very large sample to work with. 
That is one of the concerns of the private sector.
    Mr. Davis of Illinois.
    Mr. Davis of Illinois. I have no further questions, Mr. 
Chairman.
    Mr. Miller. As I said before, this is a great opportunity 
for the Census Bureau and the country to get better, more 
accurate data and more timely data. We do have a lot of 
questions that need to be answered. Thank you all very much for 
being with us here today.
    I will now call up the third panel.
    [Witnesses sworn.]
    Mr. Miller. The record should note that all witnesses 
answered in the affirmative.
    I appreciate all of you being here. We may have a vote on 
the floor in a few minutes.
    Mr. Crowe, if you would like to proceed with your opening 
statement.

  STATEMENTS OF DAVID CROWE, STAFF VICE PRESIDENT OF HOUSING 
POLICY, NATIONAL ASSOCIATION OF HOME BUILDERS; EDWARD HUDGINS, 
   DIRECTOR OF REGULATORY STUDIES, THE CATO INSTITUTE; CHUCK 
 FLUHARTY, DIRECTOR, RURAL POLICY RESEARCH INSTITUTE; RICHARD 
KULKA, VICE PRESIDENT OF STATISTICS, HEALTH AND SOCIAL POLICY, 
  RESEARCH TRIANGLE POLICY, ACCOMPANIED BY JUDITH T. LESSLER, 
  DIRECTOR, STATISTICS RESEARCH DIVISION; AND BARBARA WELTY, 
  PRESIDENT, NATIONAL CENTER FOR SMALL COMMUNITIES, BOARD OF 
     DIRECTORS, NATIONAL ASSOCIATION OF TOWNS AND TOWNSHIPS

    Mr. Crowe. Thank you, Mr. Chairman. I thank you for the 
opportunity to participate in the hearing on the Census 
Bureau's American Community Survey and the collection of 
important data in the post-census 2000 era. I will summarize my 
statement and ask my full written statement be included.
    Mr. Miller. We will include everybody's full written 
statement for the record.
    Mr. Crowe. My name is David Crowe. I am the staff vice 
president for housing policy at the National Association of 
Home Builders. I also represent a coalition of housing 
organizations, called the Housing Statistics Users Group, on 
the 2000 Census Advisory Committee to the Secretary of 
Commerce, and 2 years ago I was pleased to testify before this 
subcommittee on behalf of the Coalition to Preserve Census 
Data, a group of broad-based industry and professional 
associations and individual companies representing diverse 
economic sectors, including retail, print communications, 
housing, transportation and marketing.
    We are grateful to the committee for supporting the 
coalition's request for preserving the collection of data in 
the 2000 census. We applaud your continued monitoring and 
review of this complex issue related to the collection of data. 
We encourage you to examine these issues objectively to ensure 
that the Nation's information needs are met in the most cost-
effective and efficient, reliable manner.
    Business, industry and professional data users are studying 
the proposed ACS carefully as well. I am pleased once again to 
speak on behalf of the many stakeholders today. I have three 
points I would like to convey. First, the collection and 
dissemination of basic data about people and their conditions 
are core to the statistical infrastructure of our country and a 
legitimate and necessary function of a democratic government.
    Second, demographic and socioeconomic data are essential 
tools for informed decisionmaking, prudent investment and an 
efficient allocation of resources in both the public and 
private sectors. The detail of America's homes and communities 
is the meat on the bones of the basic count of people.
    Third, alternatives to the collection of demographic 
information should be considered. The ACS appears to be a sound 
alternative to the traditional census long form, and Congress 
must be willing to provide sufficient funding and support 
reasonable content before deciding to eliminate the long form.
    On the question of Federal support, I ask two questions: 
Should the Federal Government collect and publish statistics on 
the population and the characteristics of our communities? Is 
establishing a basic statistical picture of America a 
legitimate function of the government?
    I say yes. Data collection not only is a legitimate 
function of the government, it is in many respects a necessary 
activity of a democratic society. Long-form data are employed 
by policymakers, businesses and public advocates because it is 
reliable, consistent, and comprehensive. No privately run 
organization could duplicate or replicate the conditions and 
the infrastructure or certainly gain the trust of respondents.
    Critics suggest that data collection is used to justify 
unneeded expenditures and promote government largesse. I 
contend the opposite is true. An informed citizenry exercises 
the most effective check on wasteful and inefficient government 
spending and guards against improper or inefficient use of 
resources and power.
    Some observers believe that the wide range of information 
traditionally collected on the long form constitutes corporate 
welfare. I think this is also false for four reasons. One, 
while census data provide basic information about the 
characteristics of our population, businesses must conduct more 
focused research and data collection tailored to their specific 
needs. Census data represents a universally consistent and 
respected basis of fact that no private company could 
replicate. It is a statistical benchmark rather than a tool of 
competition.
    Second, there are Federal laws, as has been mentioned, 
requiring the collection of these data.
    Third, the census is the only source of information for 
small areas such as tracts that allow government planners and 
the private sector to prepare their communities for the future.
    And finally, businesses do pay taxes which help support 
this endeavor.
    Concerns about individuals' privacy are legitimate. 
Assigning the task of data collection to the Census Bureau 
provides better protection than alternatives. Most people 
understand that the collection and dissemination of data from 
the census is far safer, infinitely less compromised and 
effectively isolated from revelation because the Bureau is 
responsible for the security rather than a private for-profit 
firm. The Census Bureau does ask some personal questions to 
produce impersonal data. The fact that many people may not 
fully comprehend this link is more a question of better 
education than a revolt against the government.
    The development of the ACS presents a valuable opportunity 
to examine this issue and build a foundation of mutual trust. I 
would like to take just a minute to explain how this gathering 
of information promotes economic growth and improves the 
quality of life.
    Business and industry need basic demographic and 
socioeconomic information and housing data for the same reasons 
that the government does, to make informed decisions, to make 
accurate projections, to make prudent investments. These 
decisions and judgments allow businesses to create jobs, to 
provide appropriate products and services to our communities, 
to invest resources in underserved urban neighborhoods and 
rural areas, and to assess work force readiness.
    Let me use an example from my industry, the housing 
industry. The National Association of Home Builders represents 
about 200,000 firms which build 80 percent of the 1.5 million 
homes in this country. Residential construction is 5 cents of 
every $1 spent in this country. The census long form is the 
only source of geographically detailed, nationally comparable 
data on our Nation's housing stock and the people who live in 
those homes. Local planners, home builders and financial 
institutions rely on it to decide whether to invest in new 
housing, where it should be and what needs it must fulfill. 
Without basic housing conditions gleaned from the census, these 
companies either wouldn't invest in some areas, or they would 
make inaccurate decisions that could hurt both business and 
consumer. They do collect data on their own, but it serves to 
amplify the basic data rather than complement it.
    It is also instructive to consider the transportation 
sector, another large component of the economy. Transportation 
services contribute $378 billion in the economy, up 21 percent 
from 1992, and the long form serves as the only source of 
geographic information for that sector as well as providing 
information on work trips, transportation preferences and 
household and working characteristics.
    The American Community Survey offers a promising 
opportunity for information collected in the census long form. 
By measuring many characteristics of our population and housing 
stock on a continuous basis, it would provide far more timely 
and more accurate information. It would also be useful for 
emerging data needs.
    Replacing the census long form with the American Community 
Survey also carries risks. We know that every 10 years the 
census puts forth a massive infrastructure to count the 
population and allocates a substantial amount of money to that 
task.
    While the ACS may require more direct funding over a 10-
year period than the census long form, the additional costs 
might be offset, as was said in the earlier testimony, by more 
prudent investment and more precise targeting. I encourage you 
to consider the value of that investment as you weigh the cost 
of replacing the long form with the continuous measurement.
    There are a number of issues to consider before Congress 
and external stakeholders embrace such a paradigm shift in the 
strategy for collecting geographically detailed information. 
These issues include a process for determining what questions 
are asked and how they are asked, and an assessment of sample 
size to ensure adequate coverage and cost.
    Mr. Miller. Can you summarize?
    Mr. Crowe. In summary, congressional oversight is an 
important objective. I would simply summarize my three points: 
Basic data collection is a responsibility of our government. 
Basic demographic and social data provides the infrastructure 
of information about our country, and the ACS is a promising 
alternative. Thank you.
    Mr. Miller. Thank you.
    [The prepared statement of Mr. Crowe follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.017
    
    [GRAPHIC] [TIFF OMITTED] T3836.018
    
    [GRAPHIC] [TIFF OMITTED] T3836.019
    
    [GRAPHIC] [TIFF OMITTED] T3836.020
    
    [GRAPHIC] [TIFF OMITTED] T3836.021
    
    [GRAPHIC] [TIFF OMITTED] T3836.022
    
    [GRAPHIC] [TIFF OMITTED] T3836.023
    
    [GRAPHIC] [TIFF OMITTED] T3836.024
    
    [GRAPHIC] [TIFF OMITTED] T3836.025
    
    [GRAPHIC] [TIFF OMITTED] T3836.026
    
    [GRAPHIC] [TIFF OMITTED] T3836.027
    
    [GRAPHIC] [TIFF OMITTED] T3836.028
    
    [GRAPHIC] [TIFF OMITTED] T3836.029
    
    Mr. Miller. We are voting across the hall, and so I am 
sitting on the side so I can leave quickly. We do have lights 
for 5 minutes, and please watch the light.
    Mrs. Maloney. And I have to run to another committee 
meeting, and I will be right back.
    Mr. Miller. Mr. Hudgins.
    Mr. Hudgins. Thank you. I will summarize my longer remarks.
    I am Dr. Edward Hudgins of the Cato Institute, and I 
commend the committee for holding these hearings and thank you 
for the opportunity to speak today about the census.
    While there are legal and methodological questions 
concerning the proposed American Community Survey, I raise the 
more fundamental issue: Should the Federal Government be asking 
the questions currently contained in the census and mandating 
citizens to answer? I have done many call-in shows and 
interviews on the census, received numerous e-mails and 
telephone calls of concern. I report to you today a sentiment I 
believe is shared by millions of Americans. The lack of proper 
decorum and its expression is not aimed at the individual 
Members of Congress in attendance, but rather at the system as 
a whole. An accurate summary of that sentiment would be ``most 
of the census questions are none of your damned business. We 
hire you to protect our lives, liberties and property, not to 
butt into our affairs. Stop your meddling.''
    Let me return to the proper decorum and explain this 
position by answering four questions. First what does the 
census suggest about America's civic order? The Constitution 
authorizes a census to enumerate persons in order to apportion 
electoral votes. Yet the 53 questions about income, how we get 
to work, how many toilets we have, have nothing to do with that 
purpose. The civics lesson is that Washington political elites 
need the information so they can redistribute wealth and limit 
liberty according to their visions of a good society.
    Without census data, political elites would find it 
difficult to convince the public about the needs for their 
policies. We are told that filling out census forms helps our 
communities and ourselves obtain aid for roads, schools, child 
care and recreation. In the past, the Federal Government took 
far less from families in taxes and did not so dominate public 
policy that it reduced State and local government tax bases and 
functions. Now we are urged to answer census questions so we 
can ransom back our own money. The decline of American 
federalism provides the impetus for the intrusive census 
questions.
    I also note, by the way, that the census seems to be 
obsessed with race. We are asked three questions with numerous 
subdivisions of answers. It is instructive by the way that we 
are asked what race we consider ourselves to be. I guess this 
puts off until the future the need for Nuremberg-type race laws 
or mandatory DNA tests.
    A second question is why are individuals so upset about the 
2000 census since it doesn't contain more questions than the 
1990 one? The first reason is that the information and 
communications revolution and the Internet have made 
individuals much more sensitive about their privacy. I would be 
happy to talk about the private sector response to this.
    Mr. Miller. Excuse me. I have to go across the hall for 2 
minutes. If we can take a short recess. I apologize.
    [Recess.]
    Mr. Miller. I apologize. When you are on Appropriations, 
you are not supposed to serve on another committee of Congress, 
and I am the only Member allowed to serve because of the census 
issue. They are doing the full markup of D.C. appropriations, 
and they are right across the hall. I apologize.
    Please continue, Dr. Hudgins.
    Mr. Hudgins. The second question is why are individuals so 
upset about the 2000 census since there are not more questions 
than on the 1990 one? The first reason is that the information 
and communications revolution and the Internet have made 
individuals more sensitive about their privacy, and I would be 
happy to talk about the private sector response in that area.
    The second is that individuals have seen unprecedented 
assaults by government on their privacy in recent years. There 
are reports of census takers asking for and being given access 
to records of apartment tenants from rental offices. The FDIC 
proposed a regulation which would require bank tellers to ask 
customers about any suspiciously large deposits or withdrawals. 
The Postal Service regulations last year would have made 
available to anyone off the street the home addresses and phone 
numbers of customers of private mailbox companies.
    The administration's medical privacy regulations would 
eliminate the need for the government to obtain individuals' 
permission to use or distribute their medical records. One 
administration proposal for a unique health identifier would 
require a DNA sample from each American. The Kidcare Program 
can allow bureaucrats armed with psychobabble to spy on parents 
and interfere with child rearing. Medicare now encourages 
health care workers to spy on the elderly in their own homes, 
and bills before Congress would allow Federal agents to enter 
homes, make copies of personal papers or computer hard drives 
and not notify citizens that their homes had been searched.
    I think Americans see a pattern and lump the census into a 
pattern of invasion of privacy.
    Third, what problems do these intrusions cause? I think if 
you see the census as part of this pattern, those dangers are 
quite clear. I would add that I think the census is a free 
marketing survey for corporations, and I do consider that 
corporate pork.
    Finally, what should be done? The Federal Government should 
retain only those census questions necessary to exercise its 
constitutional mandate to enumerate the population. Citizens 
should not be required to answer under penalty of law the 
questions in the long form nor in the American Community 
Survey; that is, the answers should be voluntary. Also, we 
should question what questions are asked in the survey. 
Remember, because Congress tends not to honor constitutional 
limits on its jurisdiction, there are no logical, only 
political limits on what powers it can exercise. Thus, there 
are no logical, only politically imposed limits to what 
questions the census might ask pursuant to policy goals. Will 
we see future questions on whether we smoke in the home or 
about what our diets and our exercise is?
    In summary, the American citizens should not justify or 
have to justify to government why they should keep their 
personal affairs private. The government should stick to the 
Constitution and respect the privacy of citizens and make the 
census and answers to the American Community Survey voluntary. 
Thank you.
    [The prepared statement of Mr. Hudgins follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.030
    
    [GRAPHIC] [TIFF OMITTED] T3836.031
    
    [GRAPHIC] [TIFF OMITTED] T3836.032
    
    [GRAPHIC] [TIFF OMITTED] T3836.033
    
    [GRAPHIC] [TIFF OMITTED] T3836.034
    
    [GRAPHIC] [TIFF OMITTED] T3836.035
    
    [GRAPHIC] [TIFF OMITTED] T3836.036
    
    [GRAPHIC] [TIFF OMITTED] T3836.037
    
    [GRAPHIC] [TIFF OMITTED] T3836.038
    
    [GRAPHIC] [TIFF OMITTED] T3836.039
    
    Mr. Miller. Now we have Mr. Fluharty.
    Mr. Fluharty. Thank you, Mr. Chairman. I am going to 
dispense with my oral testimony and make four points. First of 
all, I want to commend you for looking at the rural 
implications. The rural reality most of us believe is out there 
is not the rural reality our citizens and public servants live 
in. Congresswoman Emerson shared some statistics, and my full 
testimony has others. I will simply name one. In the last 8 
years, 50 percent of the population growth in rural America has 
been in-migration of metropolitan citizens. Inversely, 
metropolitan America has lost 10 percent of its population to 
rural areas. None of this is reflected in the data of the 1990 
census.
    Second, growth is a phenomenon in rural America.
    Third, Federal transfer payments are absolutely key to the 
economic viability in most rural communities, 20 to 25 percent 
of per capita income.
    And last, rural governments and rural development 
organizations are key to sustaining private sector, regionally 
targeted enterprise in rural America.
    It is really important to understand that public servants 
at the local level, like yourself, should have a fair and 
equitable playing field in which to make good decisions. That 
currently is not the case. I will use two very short examples.
    The Congressional Rural Caucus just asked us to assess a 
GAO study on the identification of economically distressed 
communities. That study was done correctly, and used census 
tract data. The Rural Policy Research Institute took that data, 
used the commuting codes that the Economic Research Service 
developed, and came out with very different findings. Should we 
have had the American Community Survey in place, it would not 
have been necessary for two Federal agencies to end up with 
different data findings.
    Second, we work every day with county governments, small 
towns and development organizations, trying to help them make 
good public sector investments. To these entities and 
jurisdiction, the existing data simply does not reflect their 
choice pattern. It is a disadvantage in the American democratic 
experience that exists because these jurisdictions cannot 
afford consultants to do the studies that are timely. They 
don't have budgets or staff.
    In my testimony I raised two cautionary concerns. One is 
vigilance, and the other is a realistic assessment of what goes 
on in the ground. I have been very impressed by what ACS has 
tried to do to get rural social scientists, statisticians and 
rural policy analysts engaged in looking at the issues that are 
critical for rural America here. I participated in two of 
those. I am impressed with their willingness to engage these 
challenges. They are very real. I will mention three.
    The moving year average is critical. There are problems 
with it. Citizen inconvenience is a challenge in terms of 
survey groups, and the privacy issue in a small sector sample 
is an issue.
    Second, there is a cultural challenge in rural America, 
with gathering this data.
    Third, I believe this committee needs to stay engaged on 
those issues. Do I believe ACS is engaged in attempting to deal 
with this? Yes, I very much do, Mr. Chairman.
    Finally, I would simply say the reality impact needs to be 
there. The rural partnerships with local governments and 
development organizations need to be in place to get the right 
data, and I would urge the committee to continue to assure that 
ACS works with appropriate, designated jurisdictional partners 
to move that forward.
    Last, all of us that work to make rural America better have 
as a common core concern the fact that we do not have good data 
upon which to help public servants make decisions. Whatever 
this committee decides to do, I would urge that, at least, this 
rural differential is adequately considered, and I appreciate 
the time to bring that to you.
    Mr. Miller. Thank you.
    [The prepared statement of Mr. Fluharty follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.040
    
    [GRAPHIC] [TIFF OMITTED] T3836.041
    
    [GRAPHIC] [TIFF OMITTED] T3836.042
    
    [GRAPHIC] [TIFF OMITTED] T3836.043
    
    [GRAPHIC] [TIFF OMITTED] T3836.044
    
    [GRAPHIC] [TIFF OMITTED] T3836.045
    
    Mr. Miller. Next we have Mr. Kulka accompanied by Judith 
Lessler.
    Mr. Kulka. Thank you for the opportunity to raise a couple 
of points. I am going to truncate what I might have said in the 
interest of time. The key issue is we are very supportive of 
the goals, objectives and fundamentals of the ACS and believe 
it would make a valuable contribution to our work and those of 
others like us and those of the Federal statistical system in 
general. So all of the things that have gone before today, we 
would endorse most of them.
    However, we are concerned about a couple of issues: that 
the ACS could have negative implications for survey research in 
general and the ability of RTI and others like us to conduct 
survey research business. We are concerned because the Bureau's 
publicity to date clearly indicates, and it has come out in 
this hearing, that it plans to go beyond its traditional 
mandate under title 13 of releasing data for statistical 
purposes only and profiles of groups of individuals within 
broad geographic areas to use the information collected in the 
ACS about specific individuals to construct sampling frames for 
other surveys.
    This expanded use raises concerns for three reasons, all of 
which we think could be resolvable if we wanted to raise them. 
First there is a conflict between the ACS mandatory reporting 
requirement, the confidentiality statements that are given to 
the public and the intended uses of the data. The Bureau's 
publicity notes that the public is required by law to respond 
to the survey, and that data will only be used in aggregate 
form for statistical purposes. But the Bureau plans to use 
specific information from specific respondents to select people 
for inclusion in other nonmandatory surveys. Most respondents 
will not interpret, we believe, statements that their data are 
confidential and only released in aggregate form as permitting 
such use. That has been addressed in earlier panels, but it is 
worth emphasizing.
    The survey research community depends on the trust that the 
public places on our promises of confidentiality. Throughout 
its history, the Census Bureau has a distinguished record as a 
leader in making sure that this public trust is not violated. 
We view such plans to use data in one way and without careful 
consent of the other as a serious threat that needs to be 
resolved.
    Second, these expanded uses of the ASC will adversely 
affect the ability of the private sector to compete with the 
Census Bureau. The Census Bureau contracts with other 
government agencies for surveys. We also contract with other 
agencies for surveys. Clearly the use of the ACS to select 
samples that are specifically tailored to the needs of other 
surveys will give the Census Bureau a large competitive 
advantage over the private sector organizations which will not 
have access to this information because of title 13 
restrictions.
    Third, this unfair competition could severely damage 
private survey research. While the Congress might decide that 
it would prefer that the Census Bureau conduct all Federal 
surveys, there is a danger in doing so. The expertise that the 
private sector has in conducting scientific surveys is 
valuable, as Dr. Prewitt referred to earlier. Agencies and 
businesses have options when they need to conduct a scientific 
survey. Private survey research organizations have led the way 
in developing innovative survey procedures, and restricting 
competition can decrease innovation. Creating conditions that 
unfairly disadvantage the private sector is counter to the 
current emphasis on strengthening the private sector so that 
the government can reduce its expenditures in its need to 
conduct the Nation's business. The net result would likely be a 
significant increase in the proportion of survey research 
conducted by the Federal Government at the expense of the 
private sector.
    We would like to reemphasize our support for the ACS if it 
is conducted in a balanced way such as under the traditional 
mandate of the Census Bureau to provide aggregated information 
for use by the government and nongovernment organizations and 
the public. However, if the uses of the ACS are expanded to 
include selecting samples for other surveys using privileged 
information, the pledges of confidentiality, as they are 
currently understood by citizens, will be violated, and the 
private sector survey research organizations will be harmed by 
unfair competition.
    There are a number of potential solutions to this problem. 
First, the Bureau could abandon its plan for expanded use of 
the individual data. Second, if the ACS were not conducted 
under mandatory reporting requirements, but with proper 
informed consent, the types of followup surveys envisioned by 
the Census Bureau with all of the advantages cited could be 
done. There are a number of other potential solutions that I 
think others in the Bureau and we have talked about.
    Ultimately we believe that the Congress must decide how to 
achieve the appropriate balance in this area. We stand ready to 
work with our colleagues at the Census Bureau, OMB and other 
Federal agencies to arrive at an optimal system if this goes 
forward as planned.
    Mrs. Maloney [presiding]. Thank you. You have raised a 
number of important points.
    [The prepared statement of Mr. Kulka follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.046
    
    [GRAPHIC] [TIFF OMITTED] T3836.047
    
    [GRAPHIC] [TIFF OMITTED] T3836.048
    
    Mrs. Maloney. Next is Barbara Welty, president of National 
Center for Small Communities Board of Directors.
    Ms. Welty. Thank you, Mrs. Maloney, and good afternoon to 
you and to the chairman when he comes back. Thank you for the 
opportunity to testify again before the Subcommittee on the 
Census. Today I am here to emphasize the importance of the 
American Community Survey for rural communities. However, 
before I go into detail, I was going to give a background, but 
will shorten that because you have given some of that.
    NATaT represents approximately 11,000 towns and townships, 
mostly small and very rural. Although individual rural 
communities may be small in population, collectively they make 
up a significant and valuable portion of our citizenry. There 
are 36,000 general purpose subcounty local governments 
throughout the country; 82 percent of them have a population of 
5,000 people or less. About half of all local governments have 
fewer than 1,000 residents. Because we are really a Nation of 
small communities, it is important that we ensure that the 
American Community Survey accurately represents the 
characteristics of those communities.
    The need for the ACS is clear. Community-specific, up-to-
date data is essential for well-informed, long-term community 
planning. Knowing that the average age of a community's 
residents is increasing gives community planners warning that 
the community may need to have assisted care living, transit 
access to pharmacies and health facilities and other programs 
to help an elderly population. Similarly, an influx of younger 
families means that a community needs to budget adequate 
capital for schools and recreation facilities. Local 
governments also use demographic information to create long-
term economic development plans to ensure the continued 
viability of these communities. The data assists in determining 
the infrastructure needs of their communities, including the 
maintenance and building of roads, sewers, shopping centers and 
libraries. Finally, data is necessary to determine eligibility 
and apply for State and Federal assistance. Many smaller 
communities depend on State and/or Federal assistance and 
require accurate and up-to-date demographic information to 
prove their eligibility.
    In sum, local officials are charged with protecting the 
health and environment and public welfare of their community 
residents. It is very difficult to fulfill these 
responsibilities without an accurate understanding of who is 
living in the community and what their needs are. By providing 
yearly refreshed data, the ACS will enable local government 
decisionmakers to remove some of the guesswork and insert hard 
evidence into their decisionmaking process.
    While the ACS promises to deliver an annually updated 5-
year average of data for small communities, there have been 
concerns raised by data users about the quality and accuracy of 
data generated from surveying small communities. It should be 
pointed out that the Bureau has taken a lead in publicly 
examining some of the concerns raised, much to its credit.
    Some of the quality concerns that have been raised include: 
The difficulty of getting complete and accurate address lists 
in rural areas because of the very nature of rural addresses, 
i.e., post office boxes and rural route and box numbers; the 
difficulty of conducting personal interviews as part of a 
nonresponse followup in rural areas. Rural areas are expected 
to have lower mail response rates than more urban areas, and 
consequently, according to the Bureau, will produce less 
reliable data than areas where there is a high mail response 
rate; sample size and sample rate. Some of those who have 
reviewed the Bureau's methodology have argued that smaller 
jurisdictions should be sampled at increasingly higher rates to 
add precision and decrease disparities in sampling errors 
between differently sized governmental units.
    Before the design for the ACS is fully approved and signed 
off, the Bureau should conduct research into the best ways to 
mitigate these concerns that have been raised, and as before, 
such work would preferably be done in a public setting to allow 
a full airing of the concerns raised and solutions proposed.
    One other point I would like to make has to do with the 
cost of the ACS program. Some of the ways to make small 
community data more accurate may very well involve having to 
put more money into the ACS process. I know, Mr. Chairman, that 
you have made good on your promises to make every effort to 
ensure that the Bureau had the necessary funds to conduct an 
actual enumeration during the 2000 census. I believe that 
members of this committee must be equally adamant that the 
Bureau gets the funds necessary to generate ACS data from small 
communities that is as accurate as is economically feasible. 
This is a fundamental question of equity for small communities, 
which, again, are the vast majority of communities in the 
Nation.
    Although there is no NATaT policy that explicitly endorses 
the American Community Survey, it is clear from the attached 
resolution that the NATaT board recognizes the need for the 
specific demographic data that the ACS would provide. Indeed, 
the resolution suggests that the ACS can provide better quality 
data than the long form currently does.
    Thank you again for this opportunity to appear before the 
subcommittee, and I will be happy to answer any questions. 
Thank you.
    Mrs. Maloney. I would like to thank you very much for your 
testimony.
    [The prepared statement of Ms. Welty follows:]

    [GRAPHIC] [TIFF OMITTED] T3836.049
    
    [GRAPHIC] [TIFF OMITTED] T3836.050
    
    [GRAPHIC] [TIFF OMITTED] T3836.051
    
    [GRAPHIC] [TIFF OMITTED] T3836.052
    
    [GRAPHIC] [TIFF OMITTED] T3836.053
    
    [GRAPHIC] [TIFF OMITTED] T3836.054
    
    Mrs. Maloney. We will adjourn. We have a vote going on. We 
will be back shortly for questions.
    I would like to put in the record a statement of Jose 
Serrano who was supposed to testify today.
    [The prepared statement of Hon. Jose E. Serrano follows:]
    [GRAPHIC] [TIFF OMITTED] T3836.055
    
    [GRAPHIC] [TIFF OMITTED] T3836.056
    
    [GRAPHIC] [TIFF OMITTED] T3836.057
    
    Mrs. Maloney. We will be back. We have a break for 10 
minutes.
    [Recess.]
    Mr. Miller [presiding]. We will reconvene, and again I 
apologize for the votes on the floor of the House. Mrs. Maloney 
will be back shortly.
    Let's have a few questions.
    Mr. Hudgins, as a Libertarian, once the government has a 
program going, you almost have to have some--I know 
philosophically you oppose the existence of it, but once it is 
there, what do you do?
    Mr. Hudgins. That is a good question. First, you look to 
the Constitution, and you ask whether the Constitution gives 
Congress authority to do something in a mandatory way.
    Mr. Miller. Let's say it was voluntary.
    Mr. Hudgins. If it is voluntary, that opens up a whole 
different issue. In terms of getting data for programs, some of 
the American Community Survey might be an appropriate way if 
Congress is going to do it. I would also maintain that this is 
something that States and localities should bear some of the 
burden on. I am a Federalist, and I think in some cases the 
responsibility might be knocked down a couple of levels.
    Mr. Miller. The Founding Fathers didn't trust the States to 
do the census.
    Mr. Hudgins. That is absolutely right. The Constitution, 
Article I, Section 2 is quite clear that the Federal Government 
has the authority to enumerate people for the purposes of 
assigning electoral votes. No argument on that. There is 
nothing in Article I, Section 2 that remotely says that the 
Federal Government can mandate that I explain how many toilets 
that I have and some of the other questions. I am suggesting 
that those be voluntary or taken out of the census entirely; or 
second, we should ask the question about what data does the 
Federal Government really need, and what are the best ways to 
collect it.
    Frankly, I am very concerned, as I mentioned, there are no 
logical or legal limits, it seems, to what Congress can do. 
Therefore, there are only political limits to what kind of 
questions might be asked. I mention not facetiously that at 
some point I can imagine the Federal Government wanting to do 
surveys on people's diets and exercise habits because lots of 
people have serious problems in those areas. I don't downplay 
the problems----
    Mr. Miller. I suspect that there are surveys, whether by 
HHS----
    Mr. Hudgins. I was just speaking on a couple of these. 
Private companies do these surveys.
    Mr. Miller. That is good information. There is some 
informed decisionmaking that needs to be made.
    Mr. Hudgins. That's correct.
    Mr. Miller. We have school lunch programs and Head Start 
programs.
    Mr. Hudgins. One of my earlier points, because of the 
decline in federalism in the United States, in a sense the 
system itself pushes Congress to seek this kind of information. 
I don't blame Mr. Prewitt or the Census Bureau in one sense. 
They are simply following orders, and I say that suggests a 
reexamination of the system itself, and is there any logical 
conclusion or logical end to what you can or cannot ask.
    Mr. Miller. Mr. Fluharty, the question is on rural America. 
The long form, they went to the long form in a sample basis 
instead of purely random sample, a stratified-type sample in 
1940.
    Mr. Prewitt. It was 1960.
    Mr. Miller. What was the perception in the rural areas? In 
the rural areas it was one out of two. What was the perception? 
You both recognize the need--or anyone else who wants to 
comment--the need for the information. What is the perception 
because of the long form invasiveness and privacy concerns?
    Ms. Welty. Mr. Chairman, as you said already, the need is 
certainly out in rural America. We need it so badly. We need 
that data to be able to do just about anything that we are 
going to do. The budgets are not available locally to be able 
to do most of the projects that rural America needs to do now, 
and therefore we do depend upon assistance for the Federal 
programs, and so we need that data.
    As to how it was interpreted, and I am assuming that you 
are meaning in this immediate census, I think the feeling was 
pretty much the same. Why do you need that, and we at the local 
level tried our very, very best to explain. We need to know how 
many toilets there are and all of those things because--and 
then follow it up with that wherever we had an opportunity to 
put that forth.
    The problem being, of course, is that we were not able to 
relate to a lot of public, and I think that is a real big issue 
that we need to do, whether ACS or long form or whatever. In 
2010, we need to educate why those questions are being asked.
    Mr. Fluharty. Two quick reactions. Talking about rural 
America is just simply impossible. There is a sociologist who 
once said, ``once you have seen one rural community, you have 
seen one rural community.''
    Rural communities are very diverse. There is no doubt there 
is a cultural imperative at work here, in some communities. I 
will not--I don't think that we should minimize the concerns 
that exist with privacy in rural areas.
    I also do not think that we should minimize the need of 
local citizen leaders in our democracy, for better data. It is 
critical to our democracy, Mr. Chairman, and I would fully 
agree, this Congress must decide what, in your wisdom, you will 
do. When you do, I would simply urge that rural jurisdictions 
in a decentralized Federal governance structure are not 
disadvantaged by access to good data upon which to make public 
policy choices. That is also an urban issue.
    The 50 percent of our country that lives in the suburbs 
have ability to access Federal funds. Rural America and central 
cities have part-time public servants, such as these panelists, 
who work with no framework for better decisions. A cultural 
imperative exists. For democracy to survive we need to address 
that issue. I urge that we do that, in whatever form we end up 
fulfilling this congressional mandate.
    Mr. Miller. I don't know enough about what the Agriculture 
Department does, but they do every 5 years a survey of farms or 
something like that. I don't know whether anything can be 
piggybacked or contracted for.
    Mr. Fluharty. I need to speak to that because it is a 
critical issue. My family has been in agriculture for six 
generations. Agriculture right now is approximately 2 to 6 
percent of the rural economy. The programs of USDA minimally 
provide the needs in transportation, venture capital, health 
care, business capital and expansion and economic development. 
In this current structure, USDA agricultural data is being 
collected. But rural America is much, much more than 
agriculture, and the integrative links of private sector and 
public sector funding is key to making sustainable economies in 
rural America.
    The one other thing that I would say, it that it is very 
important for the Census Bureau and the ACS to work with 
elected and appointed jurisdictional leaders that are already 
doing this in communities, as they build these partnerships. 
That is going to let local governance get expressed in how ACS 
does its work.
    Mr. Miller. Does each county need a specific Bureau 
liaison? Counties get very small. Mr. Fluharty and Ms. Welty, 
how it worked this past decennial, do you have a comment 
between the relationship between the Bureau and how that can be 
improved?
    Ms. Welty. Mr. Chairman, yes. I am probably a little bit 
biased because I am on the Census Advisory 2000 Committee, so I 
think we have had a very good working relationship.
    Mr. Miller. How about the local level?
    Ms. Welty. Within our organization and within our State, 
those people have been very satisfied with the way it has 
worked. There have been some glitches, but overall it has 
worked. And having the representation--or I should not say 
representation, but the communication that we have had between 
the regional office and the State office has been sufficient. 
We do not have specific county census offices in the State of 
Minnesota. There are a few, but very few. It all works well.
    Mr. Fluharty. I would second all of those comments. I think 
there are nuances in terms of public-private linkage with 
organizations in place, whether it is county, townships, 
development organizations, community or private sector players. 
There are some unique models that were talked about, and I want 
to reinforce this one more time. When ACS brought together the 
rural community, I was very impressed with their ability to 
listen to not only community practitioners, but also 
statisticians, urban and rural, and rural scientists about how 
that works.
    I think that experiment in public-private linkage has to go 
forward as ACS moves out, acknowledging that the rural 
jurisdictions are a unique challenge. I think in general there 
is a good relationship.
    Mr. Miller. Mr. Kulka, my comment before is with ACS it 
could give a new potential, almost monopolistic power to the 
Census Bureau. You are very supportive of the ACS, but then you 
also express your concern about the competitive ability for 
organizations such as yours, and one that Dr. Prewitt used to 
work with and others. What can be done to balance the ability 
of--and to some extent we are not sure what new potential power 
ACS gives to the Census Bureau.
    Mr. Kulka. I don't have the ultimate solution, but I think 
it has to do with thinking about what this new vehicle is going 
to look like. For example, Paula Schneider on our recess 
mentioned the issue of title 13, and the mandatory reporting in 
title 13 is not really the issue, that there are nonmandatory 
title 13 issues.
    A lot would be about what availability of data are there, 
and how is privacy guarded within the system. In the radical 
sense if title 13 were amended to allow under certain 
circumstances the very data I was talking about not be shared 
to other government agencies for specific statistical purposes, 
which may be going too far on the pendulum, then you would have 
balance, and maybe have a more healthy balance. I don't know 
what is possible within the legislative system.
    Mr. Miller. Let me ask you about whether it is mandatory or 
not. This was discussed earlier. If it was not mandatory, it 
would be different. What impact do you think that it would 
have?
    Mr. Kulka. I think that the assessment is correct, that 
nonmandatory will reduce mail-back response. I think they will 
achieve virtually the same results at a higher cost. We do a 
lot of information. A lot of the surveys that we do are very 
important for the government. The decision about what data 
items, which is what you were talking about, are mandatory and 
which ones aren't is really a tough decision because a lot of 
things that have been envisioned as potentially added to the 
ACS are not very different than things gathered in a 
nonmandatory way now. So the decision point you are at now is 
exactly there. What are the ones that we want at the tract 
level, as you pointed out, Mr. Chairman, but which ones need to 
be mandatory and which ones don't, and which ones can be 
gathered under different mechanisms.
    Mr. Miller. If the mandatory label goes away, you also 
believe it would be more costly. The fact is on the census form 
there was a $100 fine, and that upset some people. You are 
confirming that response rates would be less?
    Mr. Kulka. I think they would be somewhat less. And we do 
and you all mandate, and we do in many cases other surveys 
which are not mandatory, and we provide data, and response 
rates are somewhat lower, and it is more costly to gather the 
data. But putting the mandatory label on everything, I believe, 
would cause a problem.
    Mr. Miller. Mr. Crowe and others, the question of corporate 
welfare raised by Mr. Hudgins and others, we are collecting 
information for the housing industry, and the government is 
giving you free information and not having to pay Mr. Kulka's 
organization to get that same information, or for rural 
America. Why should they not collect their own information and 
pay for it?
    Mr. Crowe. Certainly. I think one thing is that businesses 
do pay taxes, and they expect that as one of the services is 
some basic core information about the condition and location of 
houses in this country.
    Also I would argue that a good deal of what the housing 
industry ends up doing with the information from the census is 
establishing some sort of a level playing field with the local 
governments. Most housing construction is regulated by local 
governments. Zoning and planning and building codes and all of 
the issues that govern what is really built and where it is 
built are locally controlled. The local governments and the 
building industry have some meeting point on data that were 
collected and formed by an independent agency, the U.S. Census 
Bureau. The Bureau has no interest, if you will, in perverting 
that information. It is honest and straightforward data about 
where is housing and what does it look like and, therefore, 
what is the next step. Where do the new houses and 
transportation corridors--all of the other community 
infrastructure which cannot be decided if you don't have some 
good basic picture of how it exists right now.
    From that standpoint I guess the industry feels that it is 
part of the infrastructure of our country to have that basic 
information. Third, it is mandatory information because of 
Federal laws. So we are really only encouraging the Congress to 
continue that responsibility to collect information, to 
evaluate Federal programs.
    Mr. Hudgins. I just want to add if you see the census in 
the context of the growing concern for privacy, what you are 
also seeing is--especially on the Internet--is an emerging 
market for information and for different degrees of privacy 
because Internet entrepreneurs need information for marketing 
purposes and other things, and what you are starting to see is 
people setting privacy policies. You see people on Internet 
sites in a sense saying, we will buy your information, and 
people want different levels of privacy. Some things people 
don't care. Other things people are very sensitive about.
    One of the things that we are going to have to discuss much 
more broadly in our society is how these markets for privacy 
are evolving and what should be the government role in it, 
because we have to protect privacy.
    On the other hand, there are valid needs for businesses and 
government and for others to have information. I don't want the 
Census Bureau stepping in and in a sense messing up the market 
with mandates.
    Ms. Welty. Mr. Chairman, my earlier answer to one of your 
questions was that in rural America and very small communities 
we don't have the data available any other way, and if we don't 
have it because of the nature of rural America, and 
particularly against small communities, the money is not there, 
so we would have to continue forward without data if it doesn't 
come from the census. That is the very bottom line.
    Mr. Miller. States could do it, too.
    Mr. Fluharty. One example in terms of Medicare policy, the 
private sector was very comfortable to differentiate hospital 
reimbursement for the very same procedure from an urban 
hospital to a rural hospital. That would not have changed were 
there not government data which said we have made a commitment 
to provide services across space, and I think that nuance in 
working out the relationship in public information and what it 
means to be in a culture that values place is a critical charge 
which this committee has to address. Without that information, 
your colleagues would not have the data to make a more 
informed, equitable decision for rural customers.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. David Crowe, you mentioned earlier the 
various uses of the information, both for public purposes and 
for private purposes, on housing. I can't resist asking you 
about the plumbing question since it did become such a topic of 
concern across this Nation and actually in the House of 
Representatives and in the Senate, too. So for the benefit of 
all of us, could you give us some examples of how the plumbing 
question is valuable to the National Association of Home 
Builders and for both the public and the private?
    Mr. Crowe. Gladly, Congresswoman Maloney. I am so happy you 
tossed that one to me.
    Mrs. Maloney. We should have put you on the talk shows.
    Mr. Crowe. First of all, the census does not ask how many 
bathrooms you have. I have heard that repeatedly from a number 
of people. That is not in the questionnaire. Whether or not it 
is complete plumbing, whether or not there are the three 
components to make what is considered to be a decent house, and 
I think that is where the reason for the question comes from, 
at least from the private standpoint. It is a good indicator of 
more general conditions of whether or not this is a decent 
house or not. It is a specific question that gives you a more 
broad view of whether we are talking about really deplorable 
housing or housing that is adequate enough that it just needs 
some repairs. Therefore, it gives us some sense of what housing 
needs are in a community, what buildings are really not useful 
anymore that should be replaced. And it is a larger answer than 
just the simplistic response to whether or not you have 
plumbing. The same is true of the kitchen facilities. Those two 
together are the only low quality housing indicator in the 
census.
    Mrs. Maloney. I would like to ask Mr. Fluharty a question. 
Although I now represent one of the great urban areas in our 
country, probably in the world, I was raised in a rural area. 
You mentioned in your statement rural bias. Would you talk a 
little bit about this perceived rural bias? What is it? Has 
this issue been addressed by the Census Bureau, and could you 
elaborate further?
    Mr. Fluharty. I believe I said unintended bias, and it does 
get to my earlier question about assuring that public servants 
and private sector actors have accurate data upon which to make 
informed choices.
    The reality is if you look at any of our rural counties in 
the United States right now, the data that you will make public 
or private sector choices on is phenomenally wrong. When we 
work with counties or townships to do either siting work for 
plans, or a county decides to invest in infrastructure, the 
data that is there for rural jurisdictions will lead to bad 
public choices.
    The challenge we have is suburban and larger urban 
jurisdictions can hire consultants, and I think that is an 
excellent service. We need to acknowledge that most rural 
governments and jurisdictions don't have that option. So while 
it is an unintended bias, it leads to unwise, in many cases, 
public sector choices in jurisdictions at the local level.
    Mrs. Maloney. Did you raise this with the Census Bureau?
    Mr. Fluharty. Indeed. And as I mentioned earlier, I am 
really impressed by their willingness to address these issues. 
As I said, we had a very fruitful 2 days looking at how ACS 
might address some of those issues. It is the reality if 
democracy is going to work at the local level in rural America.
    Mrs. Maloney. Thank you.
    Richard Kulka, you raised a lot of interesting points in 
your testimony, and you mentioned a concern that plans to use 
individual data collected under a mandatory reporting 
requirement to select specific individuals for followup studies 
could be a serious violation of confidentiality and undermine 
the public's trust in the Bureau. Would you explain how private 
survey firms correctly use information collected on the long 
form in a way which maintains the confidentiality of the data?
    Mr. Kulka. There are sort of two parts to that answer. One, 
private firms do not have access to individual information, so 
it doesn't become an issue. However, all private organizations 
in surveying have an informed consent procedure where they say 
what uses of the data are, and we are subject to institutional 
review boards who review very carefully what we tell subjects, 
potential respondents, what we do. So we are not subject to 
that.
    The danger which is correctable is that in this new 
environment that you are talking about, the ACS environment, if 
you are going to tell people this is mandatory reporting, you 
are going to be penalized by law and all of the things that 
have been discussed here, because this information has 
legislative or other mandatory characteristics of the 
populations, as a citizen you need to provide it, then you--you 
then use that information to follow them up for another survey 
on maybe a very important issue that comes up a year later. The 
question is how do you do the consent which allows people to 
understand that you might follow them up for purposes that are 
nonmandatory? That is what I was trying to address.
    Mrs. Maloney. Thank you very much. My time is up. But, Ms. 
Welty, some who have reviewed the ACS plans believe that 
smaller jurisdictions should be sampled at increasingly higher 
rates to decrease sampling errors. Is that a position that you 
agree with?
    Ms. Welty. We don't have a position at this point. We just 
know that we want the ACS to continue. We would, of course--of 
course we would like to see it done to the smallest group 
possible. We realize that financially that is impossible, but 
we are willing to compromise to a workable size of the sampling 
so that we can get down to somewhat of a smaller community.
    Mrs. Maloney. Thank you. My time is up.
    Mr. Miller. Let me thank all of you for being here today. 
This is a first of, I am sure, a number of hearings that we 
will have over the next couple of years on this issue. I think 
we have some great opportunities here. We appreciate your 
input.
    We have received written testimony from representatives of 
the Urban Coalition and the Association of Public Data Users 
that I would like to enter into the record. Without objection, 
so ordered.
    I ask unanimous consent that the record remain open for 2 
weeks for Members to submit questions for the record, and that 
witnesses submit their answers as soon as practicable. Without 
objection, so ordered.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 1:16 p.m., the subcommittee was adjourned.]


</pre></body></html>
